<html>
<title> - IRAQ: THE CHALLENGING TRANSITION TO A CIVILIAN MISSION</title>
<body><pre>[Senate Hearing 112-360]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-360

         IRAQ: THE CHALLENGING TRANSITION TO A CIVILIAN MISSION

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 1, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations









<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







      Available via the World Wide Web: http://www.gpo.gov/fdsys/






                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
73-903 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        








                            C O N T E N T S

                              ----------                              
                                                                   Page

Austin, GEN Lloyd James, III, Commanding General, United States 
  Forces-Iraq....................................................    12
    Prepared joint statement with Ambassador James F. Jeffrey....     8
Jeffrey, Hon. James F., Ambassador to Iraq, U.S. Department of 
  State, Washington, DC..........................................     6
    Prepared joint statement with GEN Lloyd James Austin III.....     8
    Responses to questions submitted for the record by following:
        Senator John F. Kerry....................................    38
        Senator Richard G. Lugar.................................    41
        Senator Robert P. Casey, Jr..............................    47
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4

                                 (iii)

  

 
                    IRAQ: THE CHALLENGING TRANSITION
                          TO A CIVILIAN MISSION

                              ----------                              


                       TUESDAY, FEBRUARY 1, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Casey, Shaheen, 
Coons, Udall, Lugar, Rubio, and Lee.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    I apologize for being a couple of minutes late. We were 
waiting for Senator Lugar, but I understand he is in transit 
from a meeting downtown, and fighting the morning traffic. So, 
we're going to get started, and when he gets here, if we 
haven't proceeded to the testimony, we will obviously----
    Oh, there he is. Great.
    Good timing. Great, Richard. Welcome.
    Well, let me welcome everybody to the first hearing of the 
new session of Congress.
    And I particularly want to take this opportunity to 
welcome--though we haven't yet adopted the rules or officially 
sworn people in with respect to committee proceedings, we are 
welcoming a number of new members to the committee.
    I'm delighted, on the Republican side, to welcome Senator 
Rubio of Florida.
    I'm happy to have you on board and look forward to working 
with you and your contributions to the committee.
    And also, Senator Lee from Utah.
    And on the Democrat side, I'm delighted to have Senator 
Udall--Tom Udall, New Mexico. I know he wanted to be part of 
this committee, last round. And I'm happy to have somebody on 
the committee who is thirsty for the work that we do.
    And we're happy to have you here.
    Likewise, Senator Coons will continue on the committee. I'm 
delighted to have him back.
    Look how fast you've risen in seniority. It's----
    [Laughter.]
    The Chairman [continuing]. It's absolutely extraordinary. I 
remember sitting down there for years.
    And also really happy to have--Senator Durbin, the 
assistant leader, will be joining the committee.
    So, we have five new members, and we look forward to 
getting together informally, as we did, beginning of last year, 
to have a chance just to get to know each other.
    This committee works best, as I think any committee does 
actually, but this committee certainly, because of the issues 
we deal with, when we are nonpartisan and nonideological and 
when we really take into account the best interests of our 
country and work in a bipartisan way.
    And I congratulate the committee for its leadership and 
efforts with respect to the START agreement and what we did 
last year.
    Now, before we get started this morning, I just want to say 
one thing about the events that are now taking place in the 
Middle East. We are witnessing a historic moment in the Middle 
East. And it is impossible to predict exactly what lies ahead. 
But, clearly, whatever transpires, it is going to have a 
profound impact, a huge influence on the region, and on 
American foreign policy in that region, for years to come.
    This morning, I have an op-ed in the New York Times that 
expresses my point of view, a personal point of view, that the 
people of Egypt and events in Egypt have, in their own power 
and in the simplicity of their spontaneity, moved beyond 
President Mubarak and his regime. And I believe it is vital for 
President Mubarak to help to transform this moment into the new 
Egypt and the new future for Egypt.
    I think, in order to do that, that it is imperative that he 
address the nation and announce, with grace and leadership, his 
understanding of the expression that his people are making, and 
of their aspirations, and to embrace them fully, and to make 
clear that neither he nor his son will be candidates for 
reelection, or for election, in the next elections, and to go 
even further, to move to put together a caretaker governance 
over these next months, working with the army, working with the 
civil society, in order to avoid violence and help to 
transition Egypt to the future that its people want and that it 
deserves.
    We have huge interest in this--the world does, obviously--
in the stability of the region and the avoidance of violence 
and conflict, and in helping to create a template for 
transformation for all of the region. So, that's what's at 
stake. It's a subject that this committee will examine very, 
very closely over the course of these next days and weeks.
    We are also obviously gathered here today to resume 
discussion over an issue that, in all the years since 2001, has 
consumed this committee and the debate in our country, but 
which, because of Afghanistan, Pakistan, the Middle East, and 
other issues, and also because of successes, has moved off of 
the front burner, so to speak. But, despite that fact, it 
remains as important as it always was throughout all of those 
years. And I think our witnesses today will make it clear that 
it also remains a challenge, with serious issues still at 
stake, all of which, together with all of the other issues of 
the Middle East, require our focused attention, which is why 
the committee is beginning with this hearing this year.
    Some people have referred to ``forgotten wars'' at various 
points of time. Afghanistan was the forgotten war, and now is 
not. And, to some degree, some people have begun to assert that 
Iraq is. But, its importance to the long-term stability of 
Middle East cannot be underestimated, and that will be very 
clear today in the testimony of our distinguished witnesses.
    I'm particularly happy, on behalf of the committee, to 
welcome Jim Jeffrey and GEN Lloyd Austin. They are, without 
question, two of our most dedicated and capable public 
servants, and that's why they're where they are, dealing with 
the issues that they are. The caliber of their leadership has 
been shown by the fact that our military in Baghdad praises 
Ambassador Jeffrey, and our diplomats in Baghdad are equally 
enthusiastic about General Austin. They have forged a superb 
partnership, much in the brand of what Ambassador Crocker and 
General Petraeus had previously. And their unity and effort is 
something that the rest of us here in Washington would do well 
to emulate.
    Significant progress has been made in Iraq in the last 4 
years. More than 100,000 American troops have been withdrawn. 
And the security situation, though sometimes strained, has not 
unraveled. Forming a government was obviously a long and 
contentious process. But, the political factions kept their 
commitment to negotiation over violence. Despite this progress, 
we face difficult choices this year.
    I want to particularly say at this time--I want to express 
my respect for and appreciation for the leadership that the 
administration, but particularly Vice President Biden, has 
offered on this issue. When he was chair here, he made more 
visits to Iraq than any other member of the committee, or the 
Congress, even. And he has spent a long time building 
relationships and gaining a significant understanding of the 
issues. And I think the respect that leaders there have for him 
and his understanding of those issues serves our country well. 
And I think he has been particularly instrumental in a number 
of negotiations and conversations in helping to bring us to 
this point that we are at now. But, he would be the first to 
tell you that the job is not done and questions remain.
    In accordance with the 2008 bilateral agreements that were 
signed and negotiated by the Bush administration, American 
troops must leave the country by the end of the year. But, 
these agreements also acknowledge--and it's important for 
people to focus on this--they also acknowledge the need for 
continued military cooperation. As in many countries around the 
world, our troops will be responsible for improving the 
bilateral defense relationship by providing security 
assistance. The size, scope, and structure of this presence, 
however, remain undetermined as we are here at this moment 
today.
    After our troops are gone, the diplomatic mission that 
remains will be of unprecedented size and complexity. Current 
planning calls for some 17,000 people to be under the Chief of 
Mission authority on roughly 15 different sites. Beyond our 
Embassy in Baghdad, one of the largest in the world, these 
sites will include three air hubs, three police training 
centers, two consulates, two Embassy branch offices, and the 
Office of Security Cooperation sites.
    Now, time is short. The civilian effort has to be fully 
operational by October. That would be complicated enough if we 
had a complete inventory of all of the moving parts, but there 
are still important unanswered questions, which we want to try 
to address this morning. Does the State Department have the 
capacity to support an ambitious diplomatic mission without 
American military support? In a still-dangerous security 
environment, what is the future of the United States/Iraqi 
relationship? And, perhaps most importantly, are we, as a 
nation, willing to commit the resources necessary to that 
civilian effort in order to ensure its success?
    Today, the Senate Foreign Relations Committee is releasing 
a majority staff report that examines these issues in detail. I 
believe it sheds important light on the tradeoffs that are 
involved here. The report makes a number of recommendations, 
which I hope the administration--in fact, I know the 
administration--is already seriously considering.
    With so much uncertainty, we need to make sure that the 
scope of the mission is balanced with the resources that are 
available. These include our civilian capacity, a financial 
commitment from Congress, a degree of U.S. military support, 
and the backing of the Iraqi Government. If these elements are 
not in place, we may face a difficult choice between scaling 
back the diplomatic mission or accepting a degree of physical 
risk that's all too familiar for our military personnel, but 
normally unacceptable for our diplomats.
    I think we can get the balance right, but it will require a 
whole-of-government approach. And that means maximum 
integration--better integration between the Departments of 
State and Defense; and frankly, a greater willingness from 
Congress to provide the financial resources necessary for 
success by supporting our diplomatic efforts with the same 
vigor that we devote to our military mission.
    In the coming weeks, I will explore the possibility of a 
multiyear authorization package for Iraq that would include the 
operational costs of the mission, as well as the security and 
economic assistance programs. This package could serve as a 
roadmap to the American public so that our effort in Iraq will 
end better than it began.
    Before turning to Senator Lugar, I want to thank those 
still serving in harm's way--those who did serve, but 
particularly those who are still serving in harm's way in 
Iraq--uniformed and civilian alike. And I think every member of 
this committee joins in expressing our gratitude, as Members of 
the Congress and as a nation, for their courage, their 
commitment, and their service to our country. You are not 
forgotten, and nor will our debt of gratitude to you ever be 
forgotten.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Just a point of personal privilege, I congratulate you on 
your extensive travel since last we met in this hearing room. 
And I know that we will benefit from your experiences and your 
testimony.
    I join you this morning in greeting our witnesses, and 
welcome this opportunity with you to examine United States 
policy in Iraq.
    Although the visibility of Iraq as a foreign policy issue 
has been reduced as the American troop presence has been drawn 
down, we will continue to have profound interests in 
developments there. The President has said that the American 
military mission will come to a close at the end of this year. 
But, as our military presence in Iraq diminishes, our civilian 
presence is being enhanced by thousands of personnel engaged in 
diplomacy, development, and security. Indeed, the U.S. Embassy 
in Baghdad is now the largest embassy in the world. An Office 
of Security Cooperation of nearly 1,000 Defense Department 
personnel is planned to mentor the Iraqi military.
    Despite progress in Iraq, violence continues. The most 
recent report on the security of Iraq by the Departments of 
State and Defense cites improved conditions but labels the 
situation in that country as ``still fragile.'' Although the 
United States should continue preparations for winding down the 
military mission, withdrawal from Iraq cannot be the sole 
driver of our policy there. We have strategic interests in 
Iraq, and it is important that our government is exploring ways 
to further those interests in the absence of significant U.S. 
military power in the country.
    We also know that what happens in Iraq will have influence 
in many parts of the Middle East. Iraq's status, stability, and 
relationships will affect balance-of-power calculations in the 
region. These are particularly important considerations, given 
the ongoing upheaval in Egypt.
    Our ideal for Iraq is that it becomes a stable, pluralistic 
society that enjoys a genuinely representative government, 
maintains a self-sustaining economy, and cooperates with the 
United States and other like-minded nations to resist 
aggression and terrorism.
    As we continue to work with the Iraqis, we will have to be 
judicious about how and when we exert leverage. Even if the 
Iraqi Government prefers to maintain some optical distance from 
the United States, it has reasons to preserve a good working 
relationship with us, including our backing for its territorial 
integrity, our mediation services with some Iraqi groups, our 
technical expertise, our ongoing military training, and other 
benefits that we bring to the table.
    As we pursue goals in Iraq, we face competition from Iran, 
which does not wish to see a pluralistic, modern, American-
friendly society next door. At this stage, the Iraqi Government 
has demonstrated its intent to maintain relationships with both 
Iran and the United States. But this is not a static situation, 
and Iraq's alignment depends as much on domestic political 
forces as it does on calculations of its need for external 
support.
    Iraq's ability to provide for its own security, meet budget 
demands, and maintain basic services, including electricity and 
education, will depend heavily on how it develops and manages 
its oil resources. Currently, Iraq is producing about 2 million 
barrels of oil per day. Based on the 12 contracts the 
Government of Iraq signed with international oil companies to 
develop 14 oil fields, Iraq expects to increase production 
capacity by 400,000 barrels per day by the end of this year. 
The contracts call for Iraq to reach the extremely ambitious 
target of 12 million barrels per day by 2017.
    An authority at PFC Energy stated that this would mean Iraq 
would ``achieve, in 7 years, what it took Saudi Arabia 70 years 
to do.'' The hurdles Iraq must clear to make that happen are 
tremendous, however, and industry experts think Iraq will be 
fortunate to reach 5 million barrels per day by the end of 
2016.
    To reach even the 5-million-per-day figure, the equivalent 
of adding about a half million barrels per day per year over 
the next 6 years, would require absolute commitment by the 
government. It would require that a large share of oil revenues 
be reinvested into oil infrastructure. It would require that 
security continue to improve. And it would require that oil 
revenue and investments be handled transparently, with a 
minimum loss to corruption. Iraq also will have to overcome the 
brain drain that has occurred in the country over the last 8 
years and seek an infusion of human capital--much as Saudi 
Arabia did--to help manage this massive effort.
    Iraq's capacity for sustaining democracy will depend 
greatly on the outcome of its oil development efforts. If oil 
revenues are expanded and transparently managed for the good of 
the whole country, there will be less tension between factions 
and regions and more stability grounded in improved services 
and education.
    What should the United States do to encourage the Iraqis to 
develop their oil production infrastructure, while 
simultaneously preventing the development of a petro-
dictatorship over the longer term as oil revenues increase?
    How will our programs going forward help Iraq withstand 
pressures from Iran?
    Is the planned United States civilian presence in Iraq 
sufficient to achieve our strategic objectives, and are we 
confident that the planned security arrangements for the 
Embassy and other United States installations in Iraq are 
adequate and will allow American personnel to carry out their 
mission?
    I appreciate very much the efforts of Ambassador Jeffrey 
and General Austin, and I look forward very much to their 
testimony today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Gentlemen, again, we welcome you and we're glad to have you 
here.
    Ambassador Jeffrey, you've been through this a number of 
times. We were commenting beforehand that you were sitting here 
with Condoleezza Rice a number of years ago when she was 
testifying. Glad to have you back and really appreciate your 
testimony today. Thank you.
    So, we go first with Ambassador Jeffrey and then General 
Austin.

 STATEMENT OF HON. JAMES F. JEFFREY, AMBASSADOR TO IRAQ, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Jeffrey. It's good to be back, Senators.
    Chairman Kerry, Ranking Member Lugar, Senators, thank you 
for holding this hearing and inviting General Austin and me to 
appear before you to discuss the issues associated with the 
United States transition from a military-led to a civilian-led 
presence in Iraq.
    We would like, at this time, to submit our joint written 
statement to the record.
    The Chairman. Without objection, it'll be printed in the 
record as if read in full.
    Ambassador Jeffrey. We face a critical moment now in Iraq, 
where we will either step up to the plate, finish the job, and 
build on the sacrifices made, or we will risk core U.S. 
national security interests, be penny-wise and pound-foolish, 
and cede the field to
al-Qaeda and other dangerous regional influences.
    We have, today, a historic opportunity and a critical 
window to help Iraq emerge as a strategic partner and a force 
for stability and moderation in a troubled region. We cannot 
afford to let the gains we have sacrificed so much for slip 
away.
    The President has clearly articulated our vision for 
partnership with Iraq. We seek there a country that is 
sovereign, stable, and self-reliant, with a government that is 
just, representative, and accountable, that denies support and 
safe haven to terrorists, is able to assume its rightful place 
in the community of nations, and contributes to the peace and 
security of the region.
    The United States military, as we all know, have performed 
admirably, but they cannot stay in Iraq forever. The Department 
of State is ready to take the lead, but we need the support and 
resources to finish the job.
    We need to have platforms around the country to carryout 
key transitional missions for the next 3 to 5 years. These 
include work with political, economic, security, and other 
officials, throughout the country, especially in key areas, 
such as Kirkuk and Mosul, where past experience has shown how a 
small number of Americans, working daily with their Iraqi 
counterparts, can have a disproportionately great impact in 
helping to defuse crises and produce long-term solutions. Our 
missions also include helping the Iraqis professionalize their 
police, an absolutely crucial component to this country's long-
term stability, to provide security assistance to help the 
Iraqis finish the job against al-Qaeda and other terrorist 
groups, and to develop a core conventional defense capability.
    To not finish the job now creates substantial risks of, 
what some people call, ``a Charlie Wilson's War'' moment, in 
Iraq, with both a resurgence of al-Qaeda and the empowering of 
other problematic regional players. Al-Qaeda, as we all know, 
is still capable of devastating attacks that threaten Iraq and 
that threaten us and that threaten the region. Gutting our 
presence in Iraq could also provide Iran increased ability to 
create anxieties in the region that, in turn, could spiral out 
of control.
    The United States has paid a dear price in this war. Over 
4,300 deaths and over 3,300 wounded among our military 
personnel, along with hundreds of Embassy casualties, and a far 
greater toll among the Iraqi security forces and civilians. As 
Vice President Biden stated during his recent visit, ``It is 
vital that we leave behind an Iraq that is worthy of the 
sacrifices that so many U.S. troops and civilians have made.''
    While all U.S. Government work is expensive in Iraq, due to 
their security situation, a robust civilian presence represents 
a significant reduction in expenditures. For example, between 
2010 and 2011, the U.S. Military withdrawal reduced the bill by 
approximately $15 billion, while the increase in State's budget 
was only $2.5 billion. And while the State Department's 2012 
funding needs will naturally increase over that level because 
of the military to civilian transition, the overall cost for 
the United States will continue to decrease dramatically.
    Moreover, United States development assistance to Iraq is 
not open-ended. Iraq has vast untapped oil resources. But, due 
to the devastated oil infrastructure, it will be a number of 
years, as Senator Lugar described, before Iraq will have 
meaningful new oil revenue. It's a short period of time, but 
it's a crucial period of time.
    And again, as Senator Kerry recently wrote to the Secretary 
of State, getting the civilian transition in Iraq right will 
also demonstrate, more generally, the ability of our country to 
transform security successes in war zones into long-term 
stability that goes beyond Iraq, including, for example, in 
Afghanistan.
    In closing, I would like to thank the Department of 
Defense, the Central Command, and above all, General Austin and 
his troops, for the support they are giving us in this mission. 
While our agreement is to go down to zero troops in-country, we 
have tremendous support from the U.S. military that will 
continue backing our Office of Security Cooperation and Over 
the Horizon and CENTCOM. This is crucial for what we'll be 
doing there, and it's crucial for what we're doing throughout 
the region.
    I would also like to express my admiration and humility for 
the commitment and sacrifice I see every day in Iraq on the 
part of our civilian staffs, military members, and our Iraqi 
partners, as they risk their lives in a cause for which they 
believe in: the Iraq I've just finished describing.
    Thank you once again for the opportunity to appear before 
you today. I will be happy to answer any questions the 
committee may have, and look forward to working hand and hand 
with you and your other congressional colleagues.
    [The joint prepared statement of Ambassador Jeffrey and 
General Austin follows:]

      Prepared Joint Statement of Ambassador James F. Jeffrey and
                          GEN Lloyd J. Austin

               why iraq is important to the united states
    A stable Iraq will play a critical role in achieving U.S. foreign 
policy objectives in the Middle East for the foreseeable future. Iraq's 
strategic importance is based on a number of factors. Iraq plays a 
central role in the Arab and Muslim worlds and hosts Shia Islam's 
holiest sites. Iraq has a diverse, multisectarian and multiethnic 
population. Geographically, Iraq is strategically positioned between 
major regional players, including Jordan, Kuwait, Saudi Arabia, Turkey, 
Iran, and Syria. Iraq represents the frontier between the Arab and 
Persian worlds. And because it is endowed with a significant portion of 
the world's oil reserves, Iraq will play an increasingly influential 
role in the global economy. We must remember that for most of its 
modern history, Iraq has been aligned with our adversaries, a threat to 
our friends and interests, and a destabilizing force in the region and 
world.
    We now face a historic opportunity--and a critical window--to help 
Iraq emerge as a strategic partner and a force for stability and 
moderation in a troubled region. An enduring Iraqi-United States 
partnership will be critical in enabling Iraq to be that positive 
force. It is in our national interest to fully support that 
partnership. We cannot afford to let the gains we have sacrificed so 
much for slip away before they are cemented.
    U.S. Interests: The United States has important national interests 
in the greater Middle East. These include the unity and security of 
Iraq as well as continued development of its democratic institutions 
and its reintegration into the region. U.S. national interests related 
to Iraq are: regional nonproliferation; counterterrorism cooperation; 
access to energy; and integration of the region into global markets.
                         administration policy
    U.S. policy is set by President Obama's 2009 speech at Camp 
Lejeune, which reaffirmed the 2008 Security Agreement, calling for the 
withdrawal of U.S. forces by December 31, 2011, and the 2008 Strategic 
Framework Agreement, which lays out a long-term strategic relationship 
between the United States and Iraq in the fields of diplomacy, 
economics, energy, security, and rule of law. The goal of the 
President's policy is to promote security and prosperity in Iraq, 
transition responsibility for security to the Iraqis, and cultivate an 
enduring strategic relationship with Iraq based on mutual interests and 
mutual respect.
    In so doing we seek an Iraq, as described in the Camp Lejeune 
speech and the May 2010 National Security Strategy, that is sovereign, 
stable, and self-reliant; with a government that is just, 
representative, and accountable; that denies support and safe haven to 
terrorists; is able to assume its rightful place in the community of 
nations; and contributes to the peace and security of the region. 
Consistent with this policy, President Obama announced the end of 
Operation Iraqi Freedom and combat operations in Iraq on August 31, 
2010. Prior to the end of combat operations, the administration 
withdrew nearly 100,000 troops, closed or transferred to the Iraqis 
hundred of bases, and moved millions of pieces of equipment out of 
Iraq. These actions marked a key transition as Iraqis assumed 
responsibility for their own security. The transitional force of less 
than 50,000 U.S. troops that remains has a new mission to advise, 
train, assist, and equip the Iraqi Security Forces, protect our 
personnel and property, and participate in counterterrorism operations. 
As the military draws down, civilians--diplomats, aid workers, and 
advisors--are moving into a more prominent role to support Iraq in 
achieving its political, economic, security, and diplomatic goals. Our 
success in Iraq will require continuing the strongest possible U.S. 
military and civilian cooperation on the ground during the drawdown.
           current security situation and a look toward 2012
    Despite some predictions to the contrary, security in Iraq improved 
during the 9-month delay in government formation. Security incidents in 
2010 were 25 percent lower than 2009 due, in large part, to the 
credible performance of the Iraqi Security Forces (ISF). They were 
instrumental in creating the space necessary for peaceful dialogue.
    That said, there is still much work to be done; 2011 will be a 
critical, challenging year--one that sets the conditions for Iraq's 
continued progress. Security trends are good but the environment is 
complex. Iraq still faces dangerous and determined enemies, each with 
their own objectives and tactics.
    Al-Qaeda in Iraq (AQI) is degraded but determined. Recent attacks 
targeting Christians, including a horrific attack October 31 against 
Our Lady of Salvation Church, as well as against Shia pilgrims during 
the observation of Arba'een demonstrate AQI's capability to conduct 
high casualty-producing attacks. However, the window of time between 
AQI attacks has widened while the level of sophistication of their 
attacks has declined. This degradation in capability is largely due to 
the efforts of Iraqi and U.S. special operations forces, working 
together to maintain constant pressure on extremist networks. 
Additionally, restricting financing and command and control capability 
greatly limits AQI's ability to conduct signature attacks. While they 
remain determined, they will not achieve their aim of inciting 
sectarian conflict--the Iraqi people continue to stand together and 
reject AQI principles.
    While AQI remains Iraq's most dangerous enemy, Shia extremist 
groups continue to be a serious threat. Groups such as Kataib 
Hezbollah, Asaib al-Haq, and the Promised Day Brigade have indicated 
their intention to increase violence against U.S. forces and they 
continue in their attempts to do just that. And while they may focus on 
U.S. forces now, we believe they will likely target the Government of 
Iraq after U.S. forces depart.
    We assess Iraq's security environment will be relatively stable in 
January 2012 due to a number of factors. AQI will remain capable of 
signature attacks but will lack public support. The Sunni insurgency 
will continue to present a low-level threat. Shia extremists will 
continue to be funded, trained, and equipped by Iran. Violence will be 
masked by criminality, illicit smuggling, and extortion--a blend of 
extremism and crime. The ISF will be increasingly capable of providing 
internal security, but will not be capable of providing for external 
defense. The Army will not be capable of conducting combined arms 
operations due to incomplete fielding of modern equipment that will 
still be arriving as U.S. forces depart. The Navy will have limited 
capability to defend territorial waters and the Air Force will lack the 
capability to maintain air sovereignty. Police will be unable to assume 
full responsibility for internal security in many regions due to 
lagging development of capabilities and professionalism, further 
hampered by poorly defined relationships between the Ministries of 
Defense and Interior.
                       iraqi security forces gaps
    For the United States to achieve its goals, the Government of Iraq 
must provide for Iraq's internal security, develop external defense 
capabilities, and lead and manage its institutions. As Iraq emerges 
from an extended government formation process, interministerial 
conflict, ethnosectarian tensions, and malign Iranian influence will 
continue to serve as barriers to progress. While U.S. operations 
through 2011 will address many of these issues, gaps in capabilities 
will remain. These gaps include:

  <bullet> Counterterrorism operations and intelligence fusion.
  <bullet> Cross-ministerial and interagency intelligence-fusion and 
        information-sharing.
  <bullet> Sustainment and logistics.
  <bullet> Combined arms (external defense)
  <bullet> Air sovereignty/air defense.
                       five ``m's'' of transition
    At the national strategic level, the transition to a civilianized 
post-2011 relationship under the Strategic Framework Agreement involves 
a number of key factors, what we call ``the five M's.'' These are: new 
Missions, Money and other resources, coordination with Prime Minister 
Maliki's government, Months left to complete the job, and Management of 
the whole process. Let us cover each of the ``M's'' in more detail.

    (1) The New Missions: The National Security Strategy lays out 
specific tasks the Embassy will have to assume from United States 
Forces-Iraq (USF-I). These include:

    Broader Diplomatic Presence: 2011 will see a huge drop in U.S. 
presence in Iraq as almost 50,000 troops and many tens of thousands of 
Defense Department contractors depart. USF-I and the 16 diplomatic 
Provincial Reconstruction Teams (PRTs) we have now are carrying out 
extraordinary security, political outreach, training, economic, and 
developmental assistance programs, and giving the Embassy, USF-I 
headquarters, and Washington situational awareness over the breadth of 
Iraq. This presence has been instrumental in aiding Iraq in achieving 
not only its security, but also remarkable political and economic 
progress. But we need a temporary civilian-led presence in these areas 
for a few years to further build on what our military and PRTs have 
done, to diffuse crises, and produce long-term solutions. To this end, 
civilian engagement with Iraq's provinces, currently led by PRTs, will 
consolidate into four strategically located diplomatic outposts. The 
Department of State will soon inaugurate two consulates--in Erbil and 
Basra--and two Embassy branch offices--in Mosul and Kirkuk--as well as 
utilize the Office of Security Cooperation in Iraq (OSC-I) offices and 
police training hubs as secure platforms for assistance throughout 
Iraq.
    Development Assistance: Aside from general political engagement and 
situational awareness, U.S. Government assistance through these 
platforms and USAID programs will emphasize strengthened provincial 
governance, community and civil society participation, economic reforms 
to expand the private sector economy, respect for the rule of law and 
human rights, improved delivery of key social services, preparations 
for future elections, and the continued return and resettlement of 
displaced persons. USAID development programs assist Iraqis to use 
their own human and natural resources more effectively and sustainably 
and coincide with USG and Iraqi prerogatives laid out in the Strategic 
Framework Agreement as well as the Iraqi Government's stated priorities 
in its own National Development Plan.
    Modernization of Iraqi Security Forces: As noted above, the ISF are 
not ready to independently provide for Iraq's defense despite their 
impressive performance thus far. They need continued U.S. support. U.S. 
Embassy Baghdad will continue the efforts of USF-I to develop Iraq's 
Security Forces, now more than 650,000 strong, through Security and 
Defense Cooperation and Security Assistance activities under the Office 
of Security Cooperation-Iraq (OSC-I). This mission will include 
advising, training, and equipping Iraqi forces, supporting professional 
military education, and planning joint military training exercises. It 
will allow for continued fulfillment of 336 cases of Foreign Military 
Sales (valued at $8 billion) and ensure the delivery of M1A1 tanks, 
patrol boats, howitzers, armored personnel carriers, and more. The OSC-
I will also enable the delivery of an additional 61 cases of Foreign 
Military Sales (valued at $5 billion) already requested by the 
Government of Iraq. It is projected to have a full-time staff of 157 
military and civilian personnel as well as hundreds of case-related 
specialists for Foreign Military Sales at any one time.
    We believe the OSC-I is important to a successful Iraq transition. 
The Department of Defense and the Department of State will work with 
Congress on requested resources and authorities needed in order to 
support the OSC-I.
    Police Development Program: We need to help the Iraqis to 
professionalize their police, an absolutely critical component to the 
country's long-term stability. The U.S. Embassy in Baghdad and the 
State Department's Bureau of International Narcotics and Law 
Enforcement Affairs will oversee a continuing USG effort to enhance the 
professionalism of the Iraqi police force through advanced mentoring at 
the ministerial and provincial level and through specialized training. 
The transition to a civilian-led partnership with the Iraqi Ministry of 
Interior will be a central element of the U.S. support to Iraq's 
Security Forces. This partnership will include 190 advisors at 28 
advisory locations in 10 provinces, eventually reaching approximately 
55 percent of the roughly 287,000 police assigned to the Iraqi Police 
Service and focused on population centers representing more than 65 
percent of the Iraqi population. The goal will be to facilitate a 
professional, competent, and self-sufficient Ministry of Interior that 
provides security and stability to its citizens and is able to 
effectively counter terrorism and organized crime within 5 years.
    Information-Sharing: Counterterrorism cooperation is the primary 
focus of our information-sharing mission. Current information exchange 
programs in Baghdad will continue, with limited information exchange--
including tactical data--at consulates and branch offices. U.S. Embassy 
Baghdad will also maintain operations and information liaison at 
various headquarters, operation centers, and intelligence fusion cells 
in four major cities in Iraq.
    Logistics: To support various missions and operating locations in 
an austere and nonpermissive environment, U.S. Embassy Baghdad must 
take on many logistical functions that USF-I currently provides for its 
forces, PRTs, and the Embassy. These include securing sites outside of 
Baghdad and providing personal security details, administering the 
Department of Defense Logistics Civil Augmentation Program's life 
support contract for all U.S. personnel in Iraq, managing the supply 
lines for food, fuel and material, operating emergency medical 
facilities, and running in-country and regional air operations.

    (2) Money and Other Resources: If the Department of State is to 
effectively take the lead from our military colleagues, we need the 
support and resources to finish the job. As Vice President Biden said 
on November 20, 2010: ``While the day will come when Iraq's vast 
natural wealth can fully finance its security and investment needs, and 
when its civilian institutions no longer require such intensive 
support, it has not yet arrived. Iraq has increased its own spending in 
these areas, and with sustained American engagement, it will emerge 
from generations of trauma to become a stable and self-reliant nation. 
That is why, even at this difficult economic time, we are asking 
Congress to fulfill our budget requests to support America's continued 
engagement, including our broader diplomatic presence, modernization 
plan for the Iraqi security forces and financing for a police 
development program.'' While all U.S. Government work is expensive in 
Iraq due to the security situation, a robust civilian presence 
represents a significant savings for the taxpayers from the bills they 
have been paying for the past 8 years. Given all the U.S. has 
sacrificed in Iraq, now is not the time to be penny-wise and pound-
foolish and risk ceding the field to al-Qaeda and Iran. One of the hard 
lessons from America's past experience in Afghanistan right after the 
cold war is the necessity of supporting and influencing the transition 
of war-torn nations from conflict to stability to peace and prosperity.

    (3) Months to January 2012: We have a limited time to successfully 
implement this transition. The Department of State will have to take 
over the above mentioned missions, deploy many thousands of additional 
personnel, and expend significant funds to build out various sites, all 
within less than a year.

    (4) Coordination With Prime Minister Maliki's Government: The 
cooperation of the Government of Iraq is essential to achieving the new 
missions above in the time allotted. Specifically, we are asking that 
the Government of Iraq finalize Land Use Agreements, provide security 
support with Iraqi Security Forces to U.S. diplomatic establishments 
and activities, and allow for the continuity of current security, 
aviation, and ground movement operations now provided by USF-I.

    (5) Management: The U.S. Government must execute this entire 
program, from budget execution through personnel deployments, site 
construction, and transfer of missions. The greatest asset of the 
operation, and of the Embassy in Baghdad, has been the extraordinary 
support provided by USF-I, CENTCOM, and the Department of Defense. This 
support, and the closest possible civilian-military cooperation during 
and after the transition, is vital to our success.
                               conclusion
    To quote the President in his address on the end of combat 
operations in Iraq on August 31, 2010: ``The Americans who have served 
in Iraq completed every mission they were given. They defeated a regime 
that had terrorized its people. Together with Iraqis and coalition 
partners who made huge sacrifices of their own, our troops fought block 
by block to help Iraq seize the chance for a better future. They 
shifted tactics to protect the Iraqi people, trained Iraqi Security 
Forces, and took out terrorist leaders. Because of our troops and 
civilians--and because of the resilience of the Iraqi people--Iraq has 
the opportunity to embrace a new destiny, even though many challenges 
remain.''
    Our over-arching goal in this transition is to build a viable 
partnership that will flourish into the future well after our troops 
have departed, and to honor the many thousands of Iraqis and Americans 
who have given their lives for a greater cause--a cause that embraces 
all of us here as we endure to leave behind an Iraq that is worthy of 
their sacrifice.

    The Chairman. Thank you, Ambassador.
    General.

            STATEMENT OF GEN LLOYD JAMES AUSTIN III,
         COMMANDING GENERAL, UNITED STATES FORCES-IRAQ

    General Austin. Chairman Kerry, Senator Lugar, 
distinguished members of the Committee on Foreign Relations, 
thank you for the opportunity to testify with Ambassador 
Jeffrey this morning. I'd also like to thank you for your 
support to our men and women in uniform, as well as our 
civilian partners at the Embassy.
    Ambassador Jeffrey has the most the professional team of 
diplomats that I've ever witnessed in my career. And it is 
indeed an honor for me to serve with him and his team.
    I'd like to take just a few minutes to give you my 
assessment on the current security environment and the 
capabilities of the Iraqi security forces, and where I see them 
in 2012 and beyond.
    The security environment in Iraq has been steadily 
improving over the past few years, most notably during the 
delay in government formation from March to December 2010. It 
was very encouraging to us that the Iraqi security forces 
remained apolitical and performed admirably during that time.
    They provided the Iraqi leaders the time and space that 
they needed, and their admirable work is paying off. Today, 
Iraq has the most inclusive government in their nation's 
history, and the security environment is the best it has been 
since 2003. Security incidents in 2010 were 25 percent lower 
than the previous year, and that trend has continued, following 
government formation.
    Security is the foundation for continued progress in Iraq. 
The security environment continues to improve, but, as 
Ambassador Jeffrey noted, it will remain complex, and threats 
to Iraq's stability will remain in 2012. Sunni extremist groups 
like al-Qaeda, will continue to target the Government of Iraq, 
the Iraqi security forces, and the Iraqi civilians in order to 
garner media attention, in an attempt to demonstrate that the 
government cannot provide security for the Iraqi people. Shia 
extremist groups will continue to target U.S. personnel, the 
Iraqi Government, and its institutions.
    While the Iraqi security forces have a good capability to 
confront Sunni and Shia extremist groups, they will have gaps 
in their external defense capabilities in 2012. Iraq will not 
be able to defend its air sovereignty for some time. They will 
also require continued development on capabilities, such as 
logistics and sustainment and intelligence, as well as new 
equipment fielding and more complex training, such as combined 
arms training and joint forces training.
    United States Forces-Iraq and the Embassy are joined at the 
hip and are closely working our transition. USF-I is developing 
the Office for Security Cooperation, which will fall under the 
Embassy and assume responsibility for continuing the training 
programs and the 13 billion dollars' worth of foreign military 
sales programs that we have with the Iraqis. This office will 
work hard and be dedicated to narrowing the capability gaps 
within the Iraqi security forces.
    Clearly, there is much work to do, but I am encouraged by 
the progress that Iraq has made over the last few years, and 
I'm confident that Iraq can achieve its full potential if it 
stays on the path that it's currently on. A stable, secure, 
self-reliant Iraq will provide stability to a region that has 
been historically unstable. The underpinning of Iraq's progress 
has been the improving security environment, and the ISF will 
be key to Iraq's success in the future.
    We, at United States Forces-Iraq, are doing everything that 
we can, with the limited time remaining, to strengthen the 
Iraqi security forces. The key to the successful transition 
from a military-led effort to a civilian-led one is the need to 
fully resource the Embassy to perform these tasks and 
responsibility.
    I'd like to take just a moment to publicly acknowledge the 
near 50,000 soldiers, sailors, airmen, marines, and 
coastguardsmen, as well as our corps of professional civilians 
serving under United States Forces-Iraq, for their dedication 
and their perseverance.
    I would also like to commend our families for their many 
sacrifices. We certainly would not be where we are today 
without their unwavering support.
    Mr. Chairman, members of the committee, thank you once 
again for this opportunity to appear with Ambassador Jeffrey 
this morning. And I stand ready to answer any questions that 
you may have.
    The Chairman. General, thank you very much.
    Again, thank you both for your leadership.
    What we will do is have a 7-minute round.
    For those of you new to the committee, we've always 
operated on a seniority basis; some committees do it on the 
early-bird, but we have stayed with that. And we go back and 
forth, side to side. So, hopefully it is a fair distribution of 
the time and effort.
    Let me begin by, first of all, asking--Ambassador, your 
mission is supposed to achieve full operational readiness by 
October, is that correct?
    Ambassador Jeffrey. It goes in layers, Senator, depending 
upon whether it's police training or the OSCI or standing up 
some of these things. But, by the October-December time period, 
we need to have our basic initial operating capability up in 
all areas.
    The Chairman. And is it your judgment today that you're on 
track to achieve that by that time?
    Ambassador Jeffrey. We are on track to achieve the initial 
operating capability. That's right, sir.
    The Chairman. Now, to what degree do the outstanding 
issues--political issues, that have been outstanding for a long 
period of time--I mean, I can remember we talked about this 
briefly before the hearing when Condoleezza Rice testified 
before us; I think it was down in the first floor, in Dirksen--
she said we were momentarily about to achieve the agreement on 
the oil revenues and the constitutional issues, et cetera. We 
are now 3 or 4 years later, and we still don't have those 
agreements at this point in time. To what degree does that--I 
mean, is that a signal that is a warning system to us about 
what may happen as we drawdown and leave? Or is that something 
that you feel is just manageable and it's the way of life, 
period?
    Ambassador Jeffrey. Frankly, Senator, that's one of the 
things I'm more confident about.
    Mr. Chairman, what we've seen is not final resolution of 
any of these problems, but we've seen dramatic progress over 
the last several years. For example, in the formation of 
government--it took a long time, but the formation itself was 
part of the political process. The various groups--the Kurdish 
Alliance, the Iraqiya People, which is a Sunni/Shia alliance, 
and the National Alliance, primarily of Shia--basically came to 
agreement on a number of power-sharing issues. They decided 
that they would make a final hydrocarbons law, on oil revenue-
sharing and other issues, to be one of their top priorities. 
And they've taken steps in this direction, both in the way that 
they have dealt with some of the problems, be it the Central 
Bank and its independence over the last few days, or, for 
example, oil being shipped out of northern Iraq from areas of 
the Kurdish regional government into the pipeline to Turkey. 
This has been an issue in the past. They reached an agreement, 
the other day, that will allow, initially, 100-, and soon 
150,000, barrels a day. This is to respond both to the IMF and 
to their own internal needs.
    But, it's this kind of step-by-step, if you will, slicing 
the salami that, frankly, is characteristic of democratic 
political processes around the world. It's slow, it's 
complicated, but it's heading in the right direction. And it's 
very, very different from when I was there in 2004, 2005.
    The Chairman. General, how do you--can you give us a sort 
of stronger, personalized kind of evaluation, if you will, of 
the capacity of the Iraqi Army to respond, particularly the 
type of--I mean, most of the gains that we've made, I gather, 
have been special forces operations, jointly, backed up, 
obviously, by everything else--but, the ability to sort of 
neutralize al-Qaeda, at this point in time. In the absence of 
our lead on that, can you share with the committee, what it is, 
on a personal level, gut level, that gives you a sense--maybe 
some examples of the kinds of things that may have even 
surprised you about Iraqi capacity, that gives you a sense 
that, without our presence, they can hold on to those gains?
    General Austin. Well, thank you, Senator.
    And, as you know, this is my third tour in Iraq. And so, 
I've watched this force develop over time. And we, basically, 
began with very little, and where we are--if you look at where 
we are now, it is truly remarkable, in terms of the progress 
that has been made.
    My assessment is that the Iraqis do have the ability, or 
will have the ability, to conduct internal--or provide for 
internal defense. As a matter of fact, they are leading the 
effort today in addressing all of the issues--all of the 
security issues in the interior of Iraq. So, there are things 
that they need to continue to work on. Things like logistics 
and sustainment, and intelligence collection, analysis, and 
dissemination. But, they've made great progress.
    And, if you look for any examples, I would say there are 
two that spring to mind right away. The first is the fact that, 
you know, it took about 9 months to form the government. And, 
in that 9-month period, the Iraqi security forces held steady. 
Not only did they hold and remain apolitical, but the security 
in the country was improved incrementally over time.
    The other thing that I would point to is that most 
recently, here in the last week and a half, we witnessed a 
pretty large religious observance in Iraq: the Arbaeen 
observance. The estimates that there are--or that there were 
about 9 million or so pilgrims that traveled down and attended 
that observance in Karbala. And, whereas we did see some 
violence, it compares to what we saw last year. And last year, 
there were only about 3 million pilgrims on the road. But, this 
year, a lot more pilgrims, about the same amount of violence. 
The Iraqis planned and executed the security for that event on 
their own. And that's very, very encouraging.
    So, there are a number of instances like that throughout. I 
think they continue to improve. But, again, there are a couple 
of things that they will have to continue to work on.
    The Chairman. Ambassador, with respect to the security 
situation for your personnel, as the military does draw down to 
negligible presence, how do you envision providing this balance 
between the right amount of security for people and not having 
them sort of bunkered into these various facilities?
    Ambassador Jeffrey. Thank you, Mr. Chairman.
    First of all, to do our job, we have to get outside the 
wire and go to the Iraqis. Not every day. Sometimes they come 
to us. Sometimes we can use telephones. But, you have to do 
that, for many reasons, including to show them that you're out 
there with them.
    We are doing this now. We're doing it under dangerous 
conditions. We had a vehicle from a Baghdad PRT on the road hit 
by an IED this morning. No casualties. But, this is a common--
essentially, a daily occurrence between indirect fire, IEDs, 
and other attacks. And we've been doing it for years.
    When I was there in 2004, 2005, we had large 
installations--we called them ``REOs''--in Hillah, Kirkuk, and 
Basrah, that we operated and secured ourselves. And we did most 
of our movements ourselves throughout those areas. Again, we 
took casualties, but we got the job accomplished.
    What we will do----
    The Chairman. You did that with a combination, did you not, 
of private security forces and military backup?
    Ambassador Jeffrey. Well, we had no military backup, for 
example, in Basrah, because there were no U.S. forces within 
hundreds of miles of there----
    The Chairman. There were British.
    Ambassador Jeffrey [continuing]. At the time.
    The Chairman. Didn't you have British----
    Ambassador Jeffrey. There were British, but, as I said--let 
me just say that we were on our own, Senator, and we secured 
our own people.
    The Chairman. And secured them with the diplomatic 
security, with----
    Ambassador Jeffrey. Diplomatic security and contractor 
security.
    Our plan is, as much as possible, to use the lessons we've 
learned from the military, for example, on dangerous moves, 
using what are called MRAPs--those were the vehicles that our 
people were in today, that are more heavily armored than our 
own vehicles; we'll be receiving some from the U.S. military in 
the months ahead--to use route reconnaissance, QRFs. We have a 
large number of helicopters dedicated for medevac and for 
reinforcement.
    And much of this, we have done before in Iraq and other 
countries. The magnitude of it is a bit different. But, we are 
very, very confident, in this regard, that we can do the job.
    The Chairman. Well, I appreciate that.
    I've gone over my time. Let me just say, first of all, that 
I think we have to be careful in replacing the military 
presence we have today with a private mercenary presence, in a 
sense, adequate to the task. And I think that's going to be a 
delicate balance. We see how President Karzai is responding to 
private security forces in Afghanistan, and I think we're going 
to have to be sensitive to that and, therefore, get the right 
balance in the overall deployment. And I think those are issues 
we've put out in the report today. And we can come back to that 
later.
    Finally, let me just say, it's good to hear your 
Massachusetts-influenced voice and accent here. [Laughter.]
     It gives me great confidence.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    Let me just follow up on some of the comments I made in my 
opening statement about oil developments in Iraq. I have 
several questions. I'll put them all together in one composite 
and ask you, Ambassador Jeffrey, to respond.
    First of all, how great a success are the Iraqis having, or 
will they likely have, over the long term in developing their 
own capacity given that the international oil companies are 
bringing in their own personnel from outside the country? Are 
the IOCs making investments in training Iraqis, or are they 
likely to do so, as opposed to exclusively utilizing their own 
national employees?
    Second, if Iraq does develop beyond its capacity to produce 
much more than 2 million barrels per day--and they've been sort 
of stuck in this range for a while--what will be Iran's 
reaction to a northern gulf oil market dominated by Iraq, as 
might be the case, if the Iraqis are as successful as they hope 
to be?
    Now, third, as a part of this, unfortunately an old friend 
of mine has told me that he has been offered a direct sale of 
Iraqi oil at a $10-per-barrel discount. But, coming along with 
that proposition was a demand that he pay the ``advisor,'' $5 
per barrel of the $10 discount. Now, the whole problem of 
corruption and its effects on all sorts of dealings has, in 
various ways, plagued several countries other than Iraq. What 
progress can you cite in this area?
    So, to summarize, I would like your composite feeling on, 
first of all, how international oil companies are employing and 
training personnel, with the hope that investments will be made 
to train Iraqis to manage their country's petroleum sector; 
second, the Iranian reaction to increased Iraqi oil production; 
and finally, the role that problems related corruption are 
affecting Iraqi oil production capabilities. Is it possible 
that Iraq will increase its capacity to produce? What should 
our attitude be on these matters? We're going to be, now, 
probably among those who are attempting to buy Iraqi oil, 
although most of the initial contracts seem to have been 
elsewhere. But, discuss, if you can, for us this overall 
picture and the confidence that you have.
    Ambassador Jeffrey. Thank you, Senator Lugar.
    First of all, we think that the Iraqis, so far, have been 
quite successful--in fact, surprisingly successful, given the 
difficult operating environment throughout the country--in 
reaching what is the initial 10-percent increase in oil 
production. So, Iraq is now up probably well over 2.4 million 
barrels a day in actual production. Exports are also climbing.
    Right now, what is slowing things down is, Iraq needs to 
complete a major rehaul of its--and buildout--of its offshore 
terminals--what's called the ICOEE project--by the end of this 
year, to double the ability to export from the south. They 
export about 20-25 percent of their oil out of the north, 
through Turkey. Once that is done, they and the IOCs will be on 
track to considerably expand to perhaps--within a relatively 
short period of time, in the order of 3 million barrels a day 
of exports, roughly equivalent to what Iran is doing, and move 
forward from there. They have the second largest reserves in 
the Middle East, we think. Extraordinary capabilities.
    The IOCs are doing well. Rather like us, in fact. I went 
down and visited several of the sites. They have large 
operating installations that those of you who have visited our 
FOBs in Iraq or Afghanistan would find quite familiar. They 
have to do security. They do hire a lot of Iraqis. It's 
something we're looking at and trying to do, as well. It makes 
sense, from several standpoints, ranging from cost to local 
awareness, security, and relations with the local folks.
    The question of Iran, I have a hard enough time working out 
United States policies toward Iraq; I don't know how Iran would 
react, Senator. That would just be hypothetical.
    I will say that, as Iraq's oil exports climb, this has a 
downward effect on international prices that is quite 
significant. And so, not only Iran, but other countries in the 
region, will notice that. There will be some issues related to 
the quotas under OPEC. Iraq remains an OPEC member state, but 
it currently does not have a quota on it. At some point, that 
will become an issue again. So, there are several things that 
will arise, not just with Iran, but with other countries. But, 
I think that, in the long run, Iraq's success is a success for 
everybody in the region, because it will contribute to 
stability.
    And, in terms of the $10-a-barrel discount, there's a fair 
amount of corruption, as the Iraqis are the first to 
acknowledge, in Iraq. And we have various programs. That's one 
of the things we've been most active on. But, in terms of oil 
sales, these have been under the supervision and observation of 
the United Nations since 2003, very closely.
    We're transitioning, with the recent lifting of several 
U.N. Security Council Resolutions on December 15, to an Iraqi 
mechanism for handling the sale of these quantities of oil. 
But, in any case, they will still have to be transparent sales, 
because, among other things, the Iraqis still have to 
compensate 5 percent of their total sales to Kuwait, under U.N. 
Security Council resolutions. So, there are very good 
mechanisms specifically for oil exports. Smuggling and other 
things, it's a somewhat different story.
    In terms of the United States, we, last year, imported 
almost 10 billion dollars' worth of oil from Iraq. So, we're a 
major customer, even though we don't have as large an exposure 
among the IOCs as other countries do. But, still we have 
ExxonMobil and we have Occidental there, and a lot of oil 
service companies, as well, active.
    Senator Lugar. Well, I'm glad you touched on the last 
point, because many American citizens would say that we have 
given a great deal, in terms of sacrifice, to bring Iraq to 
this particular point. How ironic it would be, in a world 
fighting over oil resources, if we came out on the short side 
of this. Given that we want Iraq to be self-sustaining, we 
appreciate that this is the revenue that could make it a 
successful state. Still, in our own way, we would like to see 
American firms playing a part in the revival of that industry, 
this country having given as much as we have given. Is there a 
sense, on the part of the Iraqis, of some equity of that sort?
    Ambassador Jeffrey. I wouldn't put it in that direct an 
equation, Senator. What I would say is that there is great 
respect for American firms, and great respect for American 
technology and know-how. The Iraqis have worked closely with us 
on great variety of things, primarily to the military, but also 
in the civilian sector.
    The Iraqis prequalified, in their set of contract 
negotiations that you discussed earlier, seven American firms. 
This was the largest number of firms from any country. In the 
end, only two American firms engaged in bids, but the reason 
for that was the firms' decision, in terms of profit loss, 
engagement, other competing priorities, not that of the Iraqis. 
I'm very, very confident that the Iraqis--they talk about this 
all of the time, from Prime Minister Maliki and President 
Talibani on down--they want to see more American companies 
come. But, unlike some of the national oil companies, we, in 
the political and governmental sector, cannot really have much 
influence on these companies; they're international companies, 
they take their own decisions. But, we'll do everything we can 
to make sure they're aware of the opportunities and the 
benefits of doing this.
    Senator Lugar. Thank you very much.
    Thank you.
    The Chairman. Thank you, Senator Lugar.
    Senator Cardin.
    Senator Cardin. Well, Mr. Chairman, thank you very much.
    And, Ambassador Jeffrey and General Austin, we very much 
appreciate your service and what you've been able to do on 
behalf of our country.
    At previous hearings, including one with Secretary Clinton, 
I've raised the issues of the refugees and the internally 
displaced individuals, and was assured that this is one of the 
highest priorities of our government, is to make sure that 
these issues are attended to by the Iraqis and that there is 
attention given to the plight of the refugees.
    It's my understanding that there's still a large number of 
refugees in Syria, in Jordan, in other neighboring countries, 
and that there are many Iraqis that have been internally 
displaced that have not been able to go back to their original 
communities. The longer this issue is left outstanding, a de 
facto situation exists that makes it almost impossible for 
people to be able to return to their communities. Can you give 
me a status as to where we are and what the United States 
position is, in regards to making this a priority in our 
relationship with Iraq?
    Ambassador Jeffrey. I'll give it a try, Senator.
    First of all, this is one of our largest priorities. In 
past years, we've put well over $300 million a year into 
refugee assistance for Iraq. We also have several programs to 
bring Iraqi refugees to the United States. Over the past number 
of years, we've brought at least 78,000 to the United States. 
Last year, it was approximately 18,000, and it generally stays 
at about that level.
    In terms of the numbers, the UNHCR has registered about 
200,000 in Jordan and Syria. We and the Iraqis believe there's 
considerably more there. These people have family, tribal, 
professional, and other contacts with their neighboring Arab 
countries, and it's easy for them to move back and forth. So, 
the number is considerably larger than that.
    In terms of internally displaced folks, there's about 1.5 
million that were displaced after the violence, beginning in 
2006, in Samarra. And there were about 1.2 million displaced, 
again internally, prior to that. So, it's a very, very large 
number of people. Again, we have many programs--health, food, 
direct grants, and others, through various NGOs, the UNHCR, the 
IOM, and other programs--to help them.
    We're also working with the Iraqis, because as the oil 
revenues increase and Iraq grows more prosperous, we would 
expect the Iraqis to do more. They've recently increased, 
substantially, the amount of money that they're providing the 
internally displaced refugees. And we are working with them to, 
over time, take this over.
    Senator Cardin. Well, I appreciate that answer, and I 
strongly support the relocation of Iraqis who have assisted the 
United States, here in America, who are at risk in their own 
country. And we've worked hard to get those numbers up. And I 
also very much support the efforts of our financial assistance 
for--along with the international community--to help the 
refugees.
    But, I guess my major focus of the question is: What are we 
doing so that people who want to return to their original 
communities can do so safely, and that the Iraqi Government 
makes that a priority, to allow the return of families to their 
community, without fear of safety?
    Ambassador Jeffrey. The overarching reason why people do 
not return, Senator, is concerns about security. And once you 
have a feeling that security isn't there, even if security has 
returned and you're living someplace else, you're very 
reluctant to go back. So, we're working with the Iraqis, first 
through the efforts of General Austin and the United States and 
Iraqi security forces, to improve security, and, at the same 
time, to reach out to people.
    There also has been a political issue related to this. Many 
of the people who fled to Syria and Jordan were not happy with 
the makeup of the Iraqi Government. They felt that--
particularly if they were Sunni-Arabs, that they wouldn't be 
treated correctly. We think that the inclusive government that 
we have now, with participation by all Iraqi groups, will be a 
step in the right direction and will help convince those people 
that they should return.
    It's important to note that several of the people who now 
have high-level positions in the Iraqi Government, in fact, 
were basically refugees, not able to come back from Jordan, 
just a few months ago.
    Senator Cardin. Well, I would hope that you would keep us 
informed as to the efforts being made by the United States, 
with the Iraqis and the neighboring countries, to give more 
opportunities for people to return to their communities. I 
think that's in their interest, but it also deals with the 
financial commitments of refugees. It would ease that 
circumstance.
    I want to underscore the point that the chairman made, as 
far as safety of our personnel. As we do this transition, which 
we all support, with our military presence being dramatically 
reduced, we want to make sure that our personnel are safe. So, 
I hope that you will be very open with this committee as to 
what we need to do to ensure the safety of U.S. personnel as we 
move forward with more of our programs to assist in the 
development of the country, rather than the security of the 
country.
    But, on that same side that--the chairman has talked about 
a long-term commitment in Iraq--I think we all understand that 
we're going to be there, from the point of view of helping to 
rebuild the country--what can you tell us is being put in place 
to make sure that U.S. funds are being used in the most cost-
effective way, that we have protections against U.S. funds 
being used to help finance corruption--local corruption in the 
country? How do we avoid that? And what are we doing for 
promoting U.S. values, including gender equity issues, making 
sure that we move--continue to make progress? Do we have an 
accountability system in place that gives us confidence that we 
should be considering a more permanent, longer term commitment 
to Iraq?
    Ambassador Jeffrey. Yes, sir, on all of those accounts, 
Senator.
    First of all, this is an important priority for us, and 
it's an important priority for this administration and the last 
administration. In fact, a unique institution, this Special 
Inspector General for Iraq, SIGIR, has been set up. And they 
have a very active program. They have dozens of people, either 
stationed or TDY, with us out in the field in Iraq. We also 
have the State Department and other IGs; but SIGIR, in 
particular, has been very active, looking into assistance 
programs and how effective and how efficient they are, and to 
what extend that there is corruption. I meet with the head of 
it, Stewart Bowen, with his deputy and with other members, 
frequently.
    In addition, since the time of Ryan Crocker, we have 
organized the Embassy in a unique way, where normally we have 
the Ambassador and then a Deputy Chief of Mission; but, for the 
economic and assistance elements of it, we've created, 
essentially, a second Deputy Chief of Mission, the Assistant 
Chief of Mission, currently Ambassador Peter Bodde, who looks 
into that and focuses directly on the issues of, ``Are we 
getting our bang for the buck? Are we looking into 
corruption?'' and these kind of issues.
    A good deal of our assistance goes to--and a good deal of 
our political relationships with the Iraqis and our engagement 
with them--goes to issues such as gender equality, minorities, 
the refugee issue. We have a very, very broad dialogue with 
them. We played a role, behind the scenes, on some of the 
decisions taken, in the Iraqi Constitution, on gender equality. 
For example, 25 percent of the Parliament has to be female.
    Now, there are problems with this, at times. For example, 
Iraqis, both men and women, were unhappy with the makeup of the 
Cabinet. The Prime Minister then decided that he would have to 
hold off the completion of the Cabinet until he could find more 
female candidates. And that process is ongoing.
    So, Iraqis are sensitive to this, themselves. They have a 
reputation, in the Middle East, of being a country that 
understands gender equality, a country that respects the role 
of women. It's a quite sophisticated country. And it's 
something that we give a lot of priority to, as well.
    Senator Cardin. Well, thank you for that answer. I would 
just urge you to be as transparent as you possibly can in the 
review of how United States involvement in Iraq is being--how 
the funds are being used to get value for the American 
taxpayer, and that we are promoting our values. I think the 
more that you can get that information made public, the easier 
it will be for legislation, such as our chairman is suggesting, 
to be favorably considered here.
    The Chairman. Thank you, Senator Cardin.
    Senator Lee, you weren't here when I had a chance to 
welcome everybody, but I want to welcome you personally to the 
committee. We look forward to working with you. And, hopefully 
we can be as productive as we were the last 2 years. Good 
effort. So, welcome aboard. Thank you.
    I recognize you now for a question period.
    Senator Lee. Great. Thank you.
    First of all, I want to thank both Ambassador Jeffrey and 
General Austin for being with us this morning and for your 
informative and generous and candid responses. It's been very 
helpful. As a new member of the committee, I'm very grateful 
for you being here.
    I also want to echo the expression of gratitude and support 
that's already been articulated by my colleagues this morning. 
I'm so grateful to you, and to those with whom you labor in 
Iraq, for all that you do to make this world a better place in 
which to live. From the bottom of my heart, I thank you.
    I also want to thank, in this forum, all freedom-loving 
Iraqis. I suspect you'll agree that, ultimately, the stability 
that we're trying to achieve in Iraq rests with them, those who 
love freedom in Iraq. And I look forward to seeing that come to 
fruition as they stand up and handle this.
    General Austin, I wanted to ask you, having trained 
extensively, as I understand it, with the Iraqi military 
forces, what are your biggest areas of concern with regard to 
their readiness to take the reins, following the troop 
withdrawal later this year?
    General Austin. Well, thanks, Senator.
    As I stated earlier, they are in the lead for security, as 
we speak. And they're doing a pretty good job of standing up to 
some pretty significant challenges. So, I think at about the 
time that we draw our forces down, they'll have a pretty good 
capability to address the internal security. Again, I mentioned 
earlier, there is a requirement to continue to develop the 
logistics and sustainment and the intelligence capability.
    From the standpoint of providing for defense against an 
external threat, there is still work to be done. I think they 
need better equipment. And they have purchased some of that 
equipment. They need to train on that equipment. And then, at 
some point, they need to progress to a point where they're 
doing combined arms training. Tanks and howitzers, you know, 
used in the training and the maneuvers, and also integrating 
the capabilities of their aircraft. And so, there's still some 
work to be done to develop that foundational external 
capability.
    As you know, they don't get their aircraft until 2013 or 
so. And so, they don't have the ability to provide for the 
protection for their skies for some time. That's also a 
concern.
    And I think, if you add those things up, you know, they 
recognize that there are some things that need to be continued. 
And I think they will continue to focus on those things.
    Senator Lee. Now, under what circumstances, if any, do you 
anticipate that it might become necessary to extend the U.S. 
troop presence beyond December 2011?
    General Austin. Well, sir, as you know, in accordance with 
the current agreement between the United States and Iraq, you 
know, the plan is to go to zero. And our forces will exit 
completely by the end of this year. And so, that's what we're 
focused on. And, at that point, we'll transition the 
responsibilities to the Embassy and it'll be a civilian-led 
effort. And I think the Ambassador's done great work in 
preparing for this. There's work to be done yet, for sure. But, 
I would say that, in order for that to be successful, we 
certainly have to ensure that he is adequately resourced to 
provide for the security in the future.
    Senator Lee. And some of the resource deficiencies that you 
identified, including some of the equipment, aircraft, and so 
forth, you think that, from a military standpoint, it's still 
feasible for us to withdraw without creating a power-vacuum 
problem? You're comfortable with that, from a military 
standpoint?
    General Austin. Clearly, the Iraqis will have to continue 
to acquire that equipment and train on that equipment. And, as 
you know, we have a number of FMS cases where we'll be 
continuing to provide equipment and training to them in the 
future. And that effort will be under the supervision of the 
Ambassador, through our Office of Security Cooperation.
    Senator Lee. OK. Great.
    Thank you, Mr. Chairman. No further questions.
    The Chairman. Thank you very much, Senator.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Ambassador, General, thank you for your service and 
your testimony.
    I want to ask you, Ambassador: the Vice President and the 
Deputy Assistant Secretary of State, Michael Corbin, have 
described and characterized our civilian mission in Iraq as the 
largest since the Marshall Plan. Now, like the Marshall Plan, 
the implications of its success or failure could alter the 
balance of power in a crucial region. And while we expect the 
military-to-civilian transition to be difficult, our efforts 
will still hinge on the political stability of the Iraqi 
Government. We certainly need a stable and cooperative partner 
to implement a civilian mission, so, I want to ask you, 
Ambassador: How do you see the precarious political arrangement 
in Iraq after the December Cabinet appointments? Are there 
things, in the near term, that could jeopardize the Sadrist 
support for the Maliki government? And, most importantly, I 
read your testimony, and I am very concerned about the role 
that Iran plays here in using its political influence in Iraq, 
and what that means for us, in terms of policy implications. 
So, could you give me a sense of those three things, for 
starters?
    Ambassador Jeffrey. With almost everything I do, Senator, I 
start with where I was when I was in Iraq last time. And the 
government is far more stable and far more capable now than it 
was then.
    Iraqis had to make a decision--after the March elections, 
when four major blocks essentially split the vote four ways, 
with all four of them getting roughly 25 percent of the vote--
how they would then form a government. They took the decision--
it was a decision that we agreed with, but it wasn't our 
decision to take--that they would try to be as inclusive as 
possible, to have as many of the different groups--Sunni-Arabs, 
Shia-Arabs, the Kurdish Alliance--participating in the 
government. This required a great deal of work, because you had 
to put a coalition together that wasn't just 51 percent of the 
Members of Parliament winning votes, but rather, as it is now, 
about 300 of the 325 Members of Parliament. And they did 
succeed, after much back and forth, beginning in November and 
then culminating on the 21st of December.
    The government is inclusive. It is focused on power-
sharing. We've already seen a number of examples of that, with 
the decision that I mentioned a bit earlier, about allowing oil 
to be exported from the Kurdish areas of the north, through 
Turkey; positions taken on the Central Bank and its role; and 
the willingness of the various groups to cooperate, on a 
rolling basis, to move legislation forward and to, basically, 
tackle problems, such as the independence of some of the 
institutions that are separate commissions, such as the oil 
issue, and some of the security questions that are still out 
there. Also, reconciliation, de-Baathification--the Iraqis took 
a number of important steps in that regard, basically lifting 
the de-Baathification on several people, who are critical now 
to the government formation.
    So, they've come a long way. But, of course, there is still 
a great deal of--well, there's not a great deal, but there's 
still some violence in the country. There are still active 
terrorist groups, and groups--and I'll get to that in a 
second--supported by Iranian elements, that are active. And 
this poses problems for the government. It poses problems for 
the stability of the country.
    We are quite confident that this is a partner that we can 
work with. We believe that, in the near term, this is a 
coalition that will hold together.
    The Sadrists, in particular, are a group that does not like 
us, but they have committed to staying within the political 
process. We'll have to see if that, in fact, is correct. In the 
past, they've tried to do both, be in political process and 
also run militias and attack us and attack the Iraqi 
Government. So, that's a question that remains unresolved. But, 
the rest of the political process is deeply committed to a 
peaceful working out of the problems between them.
    In terms of the Iranians, all of Iraq's neighbors, 
obviously, are very, very concerned about Iraq. Iraq in ``the 
bad old days'' was a threat to Iran, an 8-year war. It was a 
threat to Kuwait. The Turks have interest in the north, 
including the PKK presence there. Other countries, also.
    The Iranian influence, I would say, is that of an important 
neighbor. It has probably the highest level of trade of any 
given country, followed by Turkey. There are a great many 
theological links between the Shia Center in Najaf and Qom. And 
many of the people who are now in the Iraqi Government--not 
just Shia-Arabs, but also Kurds and others--found refuge in 
Iran during the Saddam regime, so there are personal ties, as 
well.
    What concerns us is, first of all, the general role of Iran 
in the Middle East. We think that Iran is attempting to expand 
its influence, and expand it in illegitimate ways, through 
violence, through support of groups, and such. We're concerned 
that that will happen or spread in Iraq, as well. But, we do 
believe that the Iraqi leaders, including Prime Minister Maliki 
and others, are well aware of threats to their sovereignty, are 
well aware of threats coming in various directions, and that 
they can be counted upon to do the right thing.
    Senator Menendez. Let me ask you a quick question. Does 
Iran want this government to succeed or fail?
    Ambassador Jeffrey. One of the problems in assessing Iran--
and I'm not an Iran expert, but I've worked on and on with it--
is that there are different power centers in Iran, Senator. I 
think some of them probably would like to see an Iraq that is 
not a threat to them--that's a legitimate concern, given what 
they went through with Saddam's invasion--and are happy to see 
an Iran that is--that--an Iraq that is a success, because they 
feel an affinity for the Shia-Arabs, who make up a majority of 
the population. I think that there are other people in Iran who 
probably would like to see much more Iranian influence over 
Iraq, and would hold Iraq's success hostage to additional 
Iranian influence. And sorting out that is one of our 
challenges.
    Senator Menendez. One last question. We have spent about 
$20 billion to develop Iraqi security forces and increased 
ministerial capacity. Overall, we spent about $58 billion on 
reconstruction in Iraq, including the building of 
infrastructure, establishment of political and social 
institutions, and a whole host of other things. Now, I 
understand the Iraqis have a sense of their own budget crisis, 
but certainly, with the challenges we are having here at home, 
at some point one would presume that where we spend our 
resources will shift to the Iraqis, funded by, let's say, 
increased oil revenue. How long do you anticipate the United 
States needs to be engaged in the civilian mission at the 
currently planned support level? And how accurate are the 
current estimates of $5 billion annually, or is it most 
realistic to say $7 to $9 billion annualy, as some academics 
have suggested?
    Ambassador Jeffrey. Senator, at this point we're talking 
about a transition of 3 to 5 years. Several things will happen 
in those
3 to 5 years. First of all, our assistance will drop. It's 
already quite low. We're looking at a police training program 
of roughly a billion dollars a year. The military is doing it 
now, we'll take it over. The program for FY11, in terms of U.S. 
military assistance--it's run from the Department of Defense 
rather than the normal FMF program--that's $1.5 billion. And 
there is another roughly $500 million, not counting the 
refugees, a separate account, which is ESF and related other 
things. So, right now we're looking at, in FY11, approximately 
$3 to $3\1/2\ billion in assistance, going down from, as you 
said, well over $50 billion that we spent on security and 
reconstruction.
    In return, the Iraqis, for example, their investment 
budget--their capital investment budget--equivalent to what we 
were doing a few years ago, in water, electricity, oil, and 
energy, and other projects--is about $8 billion, or about 15 
percent of their budget. Their expenditures on security, again, 
about $8 billion, about 15 percent of their budget. And the 
expenditure level in this fiscal year is about the same. So, 
the Iraqis are putting a tremendous amount of money into this, 
far more than we're putting in, at this point.
    We also have an agreement with them, over the last year and 
a half, that on any specific project or activity we do, in the 
civilian side, they'll provide 50 percent of the funding or 
other support. So, we're watching that. It is going down. It 
will go down further as their oil revenues come up and as 
stability continues to improve.
    Senator Menendez. Well, I appreciate that.
    And let me close; my time is over.
    We will be watching it very closely, because, after $58 
billion, we were told that Iraqi oil would fund the full costs 
of our invasion. Here in America--given the challenges that we 
have, our perceived lack of investment on critical issues, and 
the $58 billion we spent in Iraq--a continuum of spending 
between $3\1/2\ and $5 billion a year, is something that I 
think is going to be increasingly under a microscope. So, I'll 
look forward to working with you on that. And thank you for 
your answers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    Senator Coons.
    Senator Coons. Thank you, Chairman Kerry. And thank you for 
convening this important hearing on the transition from a 
military-led to a civilian-led role for the United States in 
Iraq, going forward.
    And I want to start by expressing my deep appreciation to 
our two witnesses today for their service, for their insight, 
their candor, and for the sacrifice that's been made by 
thousands of Americans in our Armed Forces, as well as 
civilians, diplomats, and allied forces. And I think the best 
way for us to honor both their sacrifice and the investment of 
over a trillion dollars, here, is to plan adequately for the 
transition and, hopefully, for a stable and secure ally in 
Iraq.
    And I'd like to start by just asking, Ambassador, if I 
could, about how you see relations between Iraq and some of its 
other neighbors we haven't touched on yet--Syria and Saudi 
Arabia, in particular. I believe there's still not a Saudi 
Embassy in Baghdad. How do we transition toward a point where 
Iraq can play a constructive role, regionally, as we move out 
of a military-led to a civilian-led presence in Iraq?
    Ambassador Jeffrey. Thank you, Senator.
    We touched a bit on Iran. Let me go around, 
counterclockwise, from north toward the west and south.
    Turkey, as I mentioned, is a major trading, investment, and 
energy partner of Iraq's. That relationship is developing in a 
very, very important, almost dramatic, way. The current Erdogan 
government has taken a very different approach than earlier 
governments, with the Kyrgyzstan regional government in the 
north, and now has a good and close relationship with it, but 
also, at the same time, primacy to the Central Government, of 
course, in Baghdad. And we're seeing this in increased energy 
exports out through Turkey, increased Turkish investments, not 
just in energy, but particularly in oil and other energy 
fields: electricity, housing, and, again, two-way trade.
    The Turks do have security interests in Iraq, particularly 
the presence of the PKK-Kurdish guerrilla group in the very 
north of the country. And we have a trilateral process dealing 
with military and political aspects of that, where----
    Senator Coons. And what's the status of the Syrian border 
arrangements, at this point?
    Ambassador Jeffrey. The Syrian border arrangements are--
there are agreements between Iraq and Syria, but, frankly, 
we're still seeing foreign fighters cross over into Iraq. And 
General Austin might, perhaps, talk more about the security 
implications of that. But, this is one of the major problems 
outstanding between Syria and Iraq.
    Jordan relations are very good. Jordan has been very 
supportive.
    More generally in the Arab world, and then I'll touch on 
Saudi Arabia, Iraq was in a special status, beginning in 1990, 
1991, with a variety of Security Council Resolutions, huge 
debts, compensation for its damages that it created in Kuwait 
and elsewhere, and it has slowly worked its way out from under 
them. We had a breakthrough on the 15th of December. Vice 
President Biden presided over the Security Council as many of 
these Security Council resolutions were lifted. That sets the 
foundation for a increasing normalcy in Iraq's relationship 
with the region, and particularly with its neighbors.
    The next step will be to try to deal with some of the 
issues outstanding still between Iraq and Kuwait. The Kuwaiti 
Prime Minister recently, for the first time in 20 years, 
traveled to Iraq. Iraqi leaders are going to be traveling to 
Kuwait for the anniversary of the liberation coming up here 
soon. So, that's another positive step.
    With Saudi Arabia, that's a complicated issue. I've 
traveled to Saudi Arabia twice and met with King Abdullah on 
the Iraq issue. And that's going to be probably the last step 
that will be taken in the normalcy.
    But, again, the Iraqis are trying very hard. We recently 
had encouraging comments by the Saudi Foreign Minister, Prince 
Saud. And we want to build on those.
    The thing that everybody's focused on, with the Saudis and 
with the rest of the region, is the Arab League summit that 
will take place in Baghdad--again, for the first time in 20 
years--in March. We'll have to see how the situation in Egypt 
overshadows that, but, for the moment, this will be another 
very, very significant step forward.
    Senator Coons. Thank you, Ambassador.
    And if I might, General Austin, I'm interested in security 
of the borders with Syria, as well as others. You made 
reference earlier to the Iraqis' real challenges in maintaining 
any air superiority for a couple years; I'm interested in that. 
I'm also interested in hearing your views on what lessons we 
can learn about our successes or challenges in standing up 
training and supporting both the Iraqi police and their 
national security forces, and then what those lessons--on both 
military and civilian side--what lessons we can then apply to 
Afghanistan, from that experience.
    Please, sir.
    General Austin. Well, thank you, Senator.
    I would--of all the security forces, I would rate the 
border security elements as being the least developed. It's 
simply a matter of the way that we went about our work there. 
We had to stand up the army, stand up the police, and enable 
them. The federal police and then the border security forces 
were the last of the forces that we were able to get to and 
work with in earnest. Having said that, they have made 
remarkable progress. There's still a lot to be done yet. The 
Iraqis fully appreciate that.
    With respect to the foreign-fighter flow across the Syrian 
border, we're probably looking at, somewhere between, five and 
nine foreign fighters coming across the border, on a routine 
basis, per month. That's much decreased from what we saw back 
in 2007, 2008, when the numbers, again, were much, much higher 
than that. Now, part of that is because of the great work of 
our CT forces. But also it's because of the work that the Iraqi 
security forces are doing currently. In working with them and 
partnering with them, they've learned a lot, they're developing 
capability; there's still a long way to go, in some cases--and 
I talked about some of that earlier--with respect to 
intelligence collection and analysis.
    With respect to lessons learned, there are a lot of them. 
But, I would say some of the key lessons learned are that, you 
know, by partnering with the host nation forces and working 
with them, side by side, on a daily basis, we were able to move 
things along much more rapidly than we would have been if we 
had taken another approach. And we're starting to see that some 
of those techniques have migrated to Afghanistan, in terms of 
how they're approaching business down at the, you know, 
battalion-company-platoon level. As you know, General Petraeus 
is in Afghanistan, and he was a guy that really helped to 
implement a lot of the techniques that we still use today. And 
so, you could expect that a lot of that would migrate over to 
Afghanistan.
    But, I think there are numerous lessons learned, and we 
continue to catalog those and share them with the community at 
large, and certainly push key lessons learned to Afghanistan, 
wherever possible.
    Senator Coons. And, General, as you transition from a 
military-led to a civilian-led role, how do you see that 
transition working, particularly in terms of supporting the 
police and security forces?
    General Austin. I think the transition is going well, 
Senator. I think, as I mentioned earlier, Ambassador Jeffrey 
and I really are working closely together on this. We literally 
are joined at the hip. But, most importantly, our organizations 
are working well together. With every responsibility and task 
that we transfer, there's a deliberate process for transferring 
those responsibilities. And the Ambassador and I, together, 
oversee the progress of those efforts. And so, I'm pretty 
confident that we have good processes. And I think our people 
are working well together.
    Senator Coons. That's great. And I was encouraged by your 
submission of, literally, joint testimony, and by the 
chairman's opening comments about your joint operations and 
partnership.
    Mr. Chairman, I thank you for your opening positive 
comments about our Vice President and his long service. I look 
forward to continuing Delaware's long tradition of service on 
this committee.
    Thank you very much.
    The Chairman. Thank you very much, Senator Coons.
    We'll begin a second round now.
    Let me bare down, a little bit, on a few things, if I can.
    It's my understanding that some requests for critical 
nonexcess equipment, such as helicopters, has been denied. 
Ambassador, if that's true, how does that impact the question 
of readiness and capacity for the civilian side to manage this?
    Ambassador Jeffrey. There has been a great many security-
related requests we have made. I mentioned the MRAPs. We're 
working now on the C-RAM system, for early warning and alarms 
related to indirect-fire attacks, which is very, very important 
to get people under cover.
    And, in addition, while it's not as easy to summarize, 
we're getting an extraordinary amount of effort by the U.S. 
military on all of the locations where we will be taking over, 
because they're all locations where the U.S. military and we 
are jointly present, at this time, to do engineering, do joint 
planning, provide equipment, provide, for example, the 
containerized trailers, if you will, that people are living in. 
We're getting extraordinary support.
    The only thing that I'm aware of that--and you mentioned 
this--was the helicopters. At one point, we asked for Black 
Hawk helicopters, but the military has, as we well understand, 
a pressing need for those in Afghanistan and elsewhere. And, 
therefore, the State Department has gone out and purchased 20 
S-61 Sikorsky helicopters, which are on track to arrive. They 
will more than do the job. We'll also support that with UH-1 
helicopters that we already have or we'll be able to get.
    The Chairman. And who's going to pilot those?
    Ambassador Jeffrey. Sir, we have what we call the State 
Department Air Wing, developed in Central and South America 
some 20 years ago, very active in Colombia. Right now I have 
about--all told in all Embassy elements, over 20 aircraft 
operating in a combat environment today in Iraq; we'll more 
than double that. And we believe that we have the people; we've 
been doing this for a long time. It's not an easy mission. It's 
not easy for the military, either. But, the equipment will be 
there, and we've got some of the world's best pilots operating.
    The Chairman. Help me to pin down this question of need, 
with respect to the numbers here. The current plan, beyond 
2011, calls for 17,000 individuals on 15 different sites with, 
as I mentioned, three different air hubs, three different 
police training centers, and two consulates, two Embassy branch 
offices, five Office of Security Cooperation sites. That 
strikes me as a--I mean, that's a big footprint. That's a lot. 
Do we really need all that?
    Ambassador Jeffrey. Let me start with the--to answer that 
with one word: yes, sir.
    Right now--it is a big--it's a huge operation--but, right 
now, to operate under the current circumstances, with the U.S. 
military as our partner, we have almost 8,000 personnel 
assigned to the Chief of Mission. We're all over the country. A 
few months ago, when we still had what we called E-PRTs, we had 
22 main sites and we had individual political offices, off with 
battalions and brigades, in even other places. So, we were 
literally all over the country, sir. We are ratcheting that 
down.
    Of the 17,000 personnel, the vast majority are going to be 
contractors. Most importantly, perimeter security contractors, 
people who don't go out and interact with the Iraqi community, 
and then a smaller number of personal security details, 
security contractors. Those people are registered with the 
Iraqi authorities. The Iraqis regulate them. They're under 
Iraqi law. And, more importantly, from my standpoint, they are 
under the direct supervision of our diplomatic security people, 
who have somebody riding in every convoy.
    The Chairman. Is it more expensive to do that than to 
maintain effort through the military?
    Ambassador Jeffrey. Well, first of all, with the military, 
Senator, what you get is, if you have a--and General Austin, of 
course, has a say in this particular issue, too. For example, 
we have artillery or infantry battalions providing support for 
our PRTs, but this takes up a company or a battery's worth of 
troops. Now, of course, these troops are being paid for--
they're in the base of the Department of Defense budget--
they're being paid, their equipment is being purchased and 
maintained and such, whether they're in Fort Hood or whether 
they're in Mosul----
    The Chairman. I understand that, but I'm trying to 
understand a cost analysis here and whether, on a dollar-for-
dollar, person-for-person basis, when you finish costing it 
out--is one less expensive than the other? Has that analysis 
been done?
    Ambassador Jeffrey. We haven't done that.
    The Chairman. I understand the----
    Ambassador Jeffrey. Yes.
    The Chairman. I understand the big rubric, here, of the 
promise about troops and the drawdown. I got all that. I'm just 
asking a question, if, notwithstanding all of that, there is a 
simplicity and a lesser cost, and even perhaps a greater 
guarantee of success, with a different model.
    Ambassador Jeffrey. Certainly, you will have a larger 
chance of success if you have a U.S. Army combat brigade 
providing security for you, because you can respond at any 
level of reaction, including a major, massive, complex ambush. 
But, for the kind of secure--we haven't seen that, for a long 
time in Iraq--for the kind of security threats we have, we 
think we have a model that will work.
    In terms of cost, it's expensive to do these PSDs. We have 
many of them in Iraq, and they do cost a great deal of money. 
But, it is also very, very expensive just for the incremental 
cost of our U.S. military in Iraq, as well, Senator.
    The Chairman. Well, fill out what people are going to be 
doing on one of those 15 different sites.
    Ambassador Jeffrey. Yes. First of all, on the 15 different 
sites, to sketch very quickly, you have a set of sites in 
Baghdad. You have the Embassy and, across the street, the 
headquarters of the OSC-I, which will be a Defense Security 
Assistance Organization under Chief of Mission authority. You 
will have, at the current police training area, where the 
military is now training Iraqi police at the police academy, 
which--we call it FOB Shield--we will take over that operation 
and have our own civilian police trainers to replace the police 
trainer civilians that we, under State Department INL, are 
providing to the military now. So, it's not a, conceptually, 
major change.
    We will have, also in the greater Baghdad area at Basmaya, 
we will have some OSC-I people doing training for some of the 
Iraqi heavy-equipment armor and such. At the airport at Sadr, 
we will have an aviation hub, again, taking over part of the 
area that the U.S. military is currently operating. Then we 
will have four major locations: Erbil, Mosul, Kirkuk, and 
Basrah. Basrah and Erbil will become consulates. Mosul and 
Kirkuk will be temporary facilities. This, of course, all 
requires the Iraqis to agree with this. And we're working with 
them on the dimensions of this in----
    The Chairman. I understand land-use agreements have not yet 
been signed----
    Ambassador Jeffrey. That's right.
    The Chairman [continuing]. And instruction has not yet 
begun.
    Ambassador Jeffrey. Construction--again, these are all 
sites where we are now operating with the U.S. military, and 
we've done some preliminary work, and we'll work through with 
the Iraqis. We've briefed the Iraqis on this; we're waiting for 
the final approval.
    The Chairman. What's the current cost for this mission?
    Ambassador Jeffrey. It's about--the current operations that 
we have, roughly, not counting the foreign assistance, is about 
$2 billion.
    The Chairman. No, going forward.
    Ambassador Jeffrey. Moving forward, the construction is in 
the order of about a billion dollars over several fiscal years. 
And then, the operating costs will up it many hundreds of 
millions of dollars, largely for security and life support.
    The Chairman. And, at this point in time, how much revenue 
do we anticipate coming from Iraqi oil?
    Ambassador Jeffrey. Iraqi oil currently is about----
    The Chairman. That is to say----
    Ambassador Jeffrey [continuing]. 50----
    The Chairman [continuing]. Against those costs.
    Ambassador Jeffrey. Right.
    The Chairman. Not total, but----
    Ambassador Jeffrey. Iraqi oil--the Iraqis are earning about 
$50 billion a year from their oil. It'll go up this year, 
because oil prices have gone up, and, as I said, they're 
beginning to export more. So, say, $60-$60-plus billion would 
be the upper limit.
    The Chairman. And how much of that will go to defray these 
expenses?
    Ambassador Jeffrey. Well, again, the Iraqis are taking over 
much of the training and equipping of their own security 
forces--the vast majority of it, at this point; we figure $8 
billion this year--and they've taken over almost all of the 
earth-turning reconstruction and capital investment. We don't 
do that anymore, Senator.
    The Chairman. But, we still have to lay out $2 billion 
against $60 billion of revenue?
    Ambassador Jeffrey. Again, to maintain our own presence. 
Now, for example, all of these sites that we mentioned, and all 
of the others, where they're basically small satellite sites, 
are all inside Iraqi military bases. So, the Iraqis have an 
inherent responsibility to provide security. They're securing 
themselves, they're securing us. We use Iraqis for our movement 
through the cities; they support my movements, they support all 
the movements of our PRTs and the military through the cities, 
as well. So, they are contributing a considerable slice of 
combat power to work with us.
    The Chairman. Well, I'm going to pursue that a little more 
with you at a later time. I've used my time, here.
    Senator Lugar and then----
    Senator Lugar. Mr. Ambassador, I want to inquire of you as 
a person very responsible for the transferring of authority, 
equipment, and missions from the Defense Department to the 
State Department as to how this process is going. Now, I do so 
on the basis that we wrote, last November to Secretary Gates, a 
letter asking how the Department of State had responded to 
several letters of request and, likewise, back and forth. And 
the Department of Defense assured us in a draft response to my 
staff that these issues had been worked out. But, there appears 
to be evidence that it is difficult to transfer military 
materials, such as helicopters and early warning systems to 
protect facilities, for example. Some have suggested, 
facetiously, that it's easier for the Department of Defense to 
transfer such articles to foreign governments than it is to 
transfer them to the Department of State.
    Now, I'd just ask, how smoothly are these transfers, first 
of all, of equipment that your mission will need after the 
military leaves, working out? And what do we need to do, back 
in the weeds of legislative authority, to make certain that 
this huge change, which may be unprecedented, works smoothly, 
even as we look at the overarching policy and change of 
mission. The Department of Defense has been doing a great 
number of things, which the Department of State has never been 
asked or tasked to do before at all. Yet, you've been 
describing the numbers of personnel that will be on the ground, 
attempting to do these same things.
    I just would like you to discuss from your experience as a 
diplomat and a person, not only in the Department of State, but 
someone who has worked with the Defense Department in several 
capacities--first of all, really, how is it going? What, if 
anything, can we do in the Congress to help expedite this 
transfer? Or is this entirely an internal administration 
proposition of Defense and State Department people needing to 
get their act together, which they will in due course and 
getting some transition rules in place that will work for us 
now and be useful down the trail, in Afghanistan, where we will 
face the same proposition?
    Ambassador Jeffrey. The short answer, Senator, as you 
probably would expect, is that it's going fine. A longer answer 
would be, in my 40 years of government service, I have never 
seen anything done in government go easily, without hiccups and 
problems and various issues; and you just work through them.
    What is important, and what we have here, is commitment of 
leadership, beginning in the field, in Baghdad, between USFI 
and the Embassy, but going up to Secretary Clinton, Secretary 
Gates, and the President and Vice President, and, we hope, the 
support of the Senate and House, to do this; and then we can 
overcome these problems. A few months ago, most of these things 
that you cited were issues, and we were going back and forth, 
and holding the proverbial government meetings. And we've 
worked through this.
    Secretary Gates recently signed an agreement that has 
cleared away a lot of this, in terms of the responsibilities 
for providing security and other support and funding for OSC-I, 
so that that very big mission--very big part of my mission--
will be, basically, overseen by Department of Defense, in 
conjunction with us, so that we'll have the very powerful 
support of DOD in making sure that that mission is accomplished 
correctly.
    Again, on the transfer of equipment, everything that we've 
needed, other than the helicopters, which we have another fix 
for, that I'm perfectly happy with, has gone forward. There 
will be issues, for example, on the way the DOD will fund the 
OSC-I. They'll need some changes in legislation or other 
things. And so, we'll have to work that, and that'll be an 
issue, as well. But, I'm absolutely convinced that, at that 
level, we'll get everything done.
    In the field, we have a big job physically doing the 
construction, deploying the people, and actually getting these 
things up to, as Senator Kerry said, full operating capability. 
And that's a challenge that we have before us in the next year.
    Senator Lugar. This is a followup for that. Frequently, 
over the course of several years, we've had testimony as to how 
funds have gone, in the minds of some of those who have 
testified, disproportionately to the Department of Defense, as 
opposed to the Department of State; how what was once a fairly 
equal type of funding situation has become very 
disproportionate. Secretary Gates, recognizing this, has been 
among the leaders in saying that some things can be done more 
effectively by the Department of State, offering in a sense, 
``How can I transfer my money, or what have you, to help you 
get these things done?''
    I raise this because, as we've stated, we are dealing with 
this in Iraq now, and we're going to be dealing with it in some 
capacity in Afghanistan; no one knows how many other times. 
And, just as a veteran of the trail of these sorts of things, 
now, how can an administration, whether this one or one in the 
future, better testify to us, as a Congress, as appropriators, 
which department is best suited to do what? Or, how should we 
rewrite some laws, regulations, or what have you, to make this 
sort of thing possible? Or is this going to have to happen, 
country by country, in the field, depending on circumstances?
    Ambassador Jeffrey. It's a big question, Senator.
    In the last administration, at the height of combat 
activity, when we had 150,000 troops in Iraq, decisions were 
made for certain--what normally would be considered USAID 
assistance programs, the famous CERP, to go to DOD; the ISIF 
program for the equipping of Iraqi forces--again, something 
that would be normally funded by an FMF program--went to DOD; 
and the police training, which we were doing in 2004-05, also 
went to DOD for management and funding.
    Again, this is an issue that administrations have to take 
in the heat of combat. What we're doing now is to, basically, 
migrate those activities back to the normal place where we 
normally do them. Assistance programs, ESF, our requests of 
over $300 million for Iraq, will be done by USAID in the 
future. We're looking for an FMF program, beginning in FY12. 
And the police training program, as we've briefed, is already 
begun to be funded through the State Department, and it will be 
fully funded through the State Department.
    So, without getting into the very detailed and very 
controversial and complicated issues here, I would say, under a 
temporary wartime basis, funds and activities responsibilities 
were shifted to DOD. As soon as we could, in the transition, 
we're shifting them back to the Department of State.
    Senator Lugar. Well, hopefully, in memos and white papers, 
or maybe even your memoirs, you'll describe the situation that 
would be helpful to your successors.
    I thank you very much.
    The Chairman. Thank you, Senator.
    Senator Rubio.
    Senator Rubio. Thank you, Ambassador and General, for being 
here with us today, and for your service.
    I just wanted to briefly examine the detainee issues. I 
know that we've turned over several facilities to the Iraqis. 
What's the status of--and I don't know who the appropriate 
person to answer that; maybe both. But, what's the status of 
those facilities that have been turned over to Iraqi 
administration, in terms of recidivism rates and things of that 
nature?
    General Austin. As you mentioned, we have turned over all 
of the detainee facilities with the exception of one. We 
continue to hold a number of detainees--a little over 200 at 
Camp Cropper--we plan to transition those detainees in the 
summer. And we're on track to transition them. So, I don't 
think there will be any issues there.
    But, in terms of recidivism, we continue to see some 
recidivism. That's to be expected. But, by and large, I think 
we've been very effective in the way that we transferred the 
detainees over to the Iraqis. And we didn't have any major 
issues as a result of that.
    Senator Rubio. General, do you know or have any indication 
of how many foreign fighters have been released by the Iraqis? 
And have we had--have we reengaged with them at any point, and 
so forth?
    General Austin. I don't have, at my fingertips, the numbers 
of foreign fighter or former foreign fighters that were 
detained and released by the Iraqis. But, there, no question, 
have been some. And, of course, we detain them. And, based upon 
the evidence that's available, the Iraqis will determine 
whether or not they continue to detain them. So, there will no 
doubt be instances where people have gone through the due legal 
processes and, as a result of evidence, or lack thereof, may 
have been released back to the population at large.
    Senator Rubio. And I guess my last question on the detainee 
issue is--I know we had had some level of success, I think, at 
dealing with some of the less radicalized prisoners that had 
come in. And there are some programs set up to kind of pull 
them away from that sort of stuff. Have the Iraqis continued 
that? And, if so, with what level of success? I mean, are they 
doing that, as well?
    General Austin. The Iraqis are doing some things, but not--
certainly not to the degree that we were doing down in Buqqa 
and some other places there. And I think, as their system 
develops, they'll learn from what we did, they'll also learn 
from what the Saudis have done, and implement more and more of 
those processes.
    Senator Rubio. And, Ambassador, this question's probably 
for you. It's a little broader and--but, I do think it ties 
into kind of what the testimony was about today. I think we're 
all watching the events in Egypt, and, before that, in Tunisia, 
Yemen. What is your sense of how that's going to be perceived 
by the people in Iraq? And, more importantly, how that could 
kind of manifest itself over the next few months and years, in 
terms of this government's ability to sustain itself?
    And I'm also curious if--I know it's kind of outside the 
focus today, but I think clearly aligned is--any thoughts you 
may have as to how this could be perceived in Iran, by people 
there?
    Ambassador Jeffrey. In terms of Iraq, I've been out of the 
country for a week, and so I haven't been following it as close 
as we normally do. But, I think that, from what I've seen and 
from talking with Iraqis, they believe in the democratic 
system. You remember the purple-finger elections of January 
2005. This has become part of the ethos of that country, a 
democratic political system. And, frankly, they think that 
they're a little ahead of most of the rest of the Middle East, 
and they're proud of their constitution, they're proud of their 
elections. And I think that they will see, to some degree, 
what's happening, if it turns in a good direction, toward more 
a true democracy, as a confirmation of the path they have 
taken, a path that has been, of course, challenged violently.
    How it all plays out, of course--and that's the question 
that we're still working our way through--is not certain, but 
we hope for a good solution in Egypt and elsewhere in the 
Middle East. We support democratic reform throughout the 
region.
    The lesson I take from that, and of some relevance here 
today, is that we do need to be, first of all, out all around 
the country. You can't follow what's going on in Egypt or Iraq 
from Cairo or Baghdad any more than you can try to figure out 
what's going on in the United States from Washington. And you 
need to be out.
    We closed our consulate in Alexander in 1993, as a budget-
saving move, and it turned out probably to be a mistake. I've 
serve in two consulates as a political officer. I know what 
it's like to be out there in the countryside. I think that that 
is very, very important. It's an early-warning system. It's one 
reason why we're asking for the funds and taking the risks we 
are, to keep our people out in Iraq, to basically keep our 
finger on what's going on and try to help our friends, and 
particularly to help the democratic transformation, to provide 
a platform for the U.N., which is also out there, and other 
members of the international community.
    In terms of Iran, it's an excellent question, sir. I really 
can't say how they're reacting. Probably with nervousness. As 
you know, they had their own street demonstrations a year and a 
half ago. They were put down with merciless violence. And I 
think that this is not a good development, from their 
standpoint. They may try to exploit it, in one or another way, 
by seeing this as an opening for extremist groups. But, my 
sense is that that will be fairly hard for them to do.
    Senator Rubio. So, just as a--I don't mean to put words in 
your mouth or to exaggerate the point, but your sense is that 
people in Iraq look at what's happening in Egypt and other 
places, and feel like they're ahead of the curve, that, in 
essence, those countries are coming their way, in terms of the 
creation of these democratic institutions. They take pride in 
the idea that they've begun to build for themselves this 
society. And, in fact, these other countries are now coming in 
that direction, to one extent or another.
    Ambassador Jeffrey. Yes. As I said, I've been a little bit 
removed from the past week. But, I think you're on target, 
Senator.
    The Chairman. Senator Lee.
    Senator Lee. Nothing further. Thank you.
    The Chairman. Just a couple of quick questions before we 
wrap up, unless Senator Lugar has more.
    But, General, can you just speak to the uptick in the rise 
of violence? Recently, in the last week, about 159 Iraqis 
killed, last week, in one week. What do you attribute that to?
    General Austin. Well, thank you, Senator.
    I attribute it to, in one word, opportunity. As I stated 
earlier, last week was the week of a annual religious 
observation or celebration, the Arbaeen observation. And, 
during that religious event, millions of pilgrims--Shia 
pilgrims get on the road and walk to Karbala. Now, we 
anticipated that, during the celebration or observance, we 
would see al-Qaeda use that as an opportunity to try to foment 
sectarian violence by striking at innocent Shia pilgrims. And 
they did, much as they have done in years past.
    And as we look at the numbers of pilgrims that were on the 
road this year--there were about 9 million pilgrims this year--
as you compare that to last year, it was about 3 million, so 
that indicates that there is probably a greater sense of 
security on the part of the Iraqi citizens. But, the numbers of 
attacks were about the same, or exactly the same, as we count 
them: eight major incidents last year, eight major incidents 
this year. The numbers of casualties, however, were down this 
year from what we saw last year.
    So, with a much increased number of pilgrims out there, so 
a much bigger target, less--they were less effective in their 
attacks. And that speaks the diligence and professionalism of 
the Iraqi security forces. They continue to improve. Again, 
they planned and conducted--coordinated and conducted the 
security for this event themselves.
    The Chairman. Well, that is encouraging. Let's hope that 
that can continue.
    Obviously, one of the biggest threats to long-term 
stability is the relationship of Kurds to the Arab community. 
And I think it's accepted that you had a pretty good success 
with the combined security mechanism, in which you have the 
Arabs, the Kurds, and U.S. forces coordinating in order to 
provide the checkpoints, et cetera--and the joint patrols; I 
guess that's taking place in four provinces. Is that going to 
be able to continue when you have completed the drawdown? Is 
the State Department going to have the ability to maintain this 
combined security mechanism which has been successful?
    General Austin. Certainly, the Embassy is taking a hard 
look at how they would go about doing this. And I'll let the 
Ambassador speak to that piece.
    But, there are options. It depends on how the Iraqis want 
to address the issue in the future. You could seek a third 
party, like the U.N., to come in and fill that void. Or you 
could seek another element to come in; perhaps NATO may look at 
that and say that that's a place that they would like to 
contribute. Or you could approach the management of those 
combined security positions differently and go to bilateral 
arrangements with an oversight element, at a higher level, that 
routinely visited these sites and made sure that we kept our 
finger on the pulse.
    So, there are a number of options to address our departure.
    And I'll let the Ambassador speak to----
    The Chairman. The bilateral would be the Arab and the Kurd, 
and then we'd come in as the oversight?
    General Austin. Correct.
    The Chairman. Ambassador, do you want to speak to that?
    Ambassador Jeffrey. The CSMs, Mr. Chairman, have been 
extraordinarily successful, but they are a important tactical 
tool in the field to suppress possible violence or possible 
disputes or possible, frankly, sparks that then ignite a 
confrontation.
    Let me talk about the strategic and the operational level. 
At the strategic level, much of what we're doing on--and what 
the Iraqis, more importantly, are doing--on an inclusive 
government is aimed at reconciliation between the Kurds and the 
Sunni-Arabs up in that region. We've seen some very encouraging 
developments, including the Iraqiya Party, which is largely 
Sunni-Arab, traveling to Erbil to meet and come up with a 
common position on government formation, 2 months ago, with 
President Barzani, of the Kurdistan Regional Government. That's 
a first. The compromise on the oil exports, that's another 
development; the agreement to move forward on the hydrocarbons.
    At the strategic level, as you begin to develop these 
cooperative steps between the political forces and between 
Baghdad and Erbil, you create an environment where people are 
less willing to let, you know, a curse or a chambered round 
start a conflagration along that line.
    At the operational level, there is a new effort to resolve 
these problems, which are related to where you draw the 
boundary, who has security, where these territories go. Some of 
them are associated with Kirkuk and what's called the Article 
140, relating to the Iraqi Constitution process, to come up 
with a negotiated solution that would then be confirmed by a 
referendum. The U.N.--head of UNAMI, the U.N. organization in 
Iraq, has just launched another round of visits in the region 
to try to kickstart that. We'll support that and try to work 
that out at every level.
    Back to the tactical level, our hope is that--and we 
haven't worked out the details yet--that the Iraqi military and 
the Peshmerga would continue these. There are a number of 
Coordination Centers we would like, through the Embassy, to 
still have eyes on in these Coordination Centers and provide as 
much of a role as possible in supporting it. But, again, to do 
that, we have to be in Kirkuk and we have to be in Mosul, where 
two of the centers are.
    The Chairman. Well, fair enough.
    It's a process still in the making, obviously, that 
particular component of it. But, I respect the dynamics that 
you have described.
    The final question I would have is simply regarding the 
integration of the Sunni. We've received some reports that the 
integration of the Sons of Iraq into the army is sort of an 
uneven process. And obviously, if the new government were to 
break down into sectarian divisions, which is always a 
possibility, the question then is whether the extremists have 
an opportunity to pull people back into insurgency. And I 
wondered if you'd just sort of--can you speak to the question 
of the Iraqi Government's determination to continue this 
integration, and how you see that proceeding?
    General Austin. Yes, Senator, I think the Iraqi Government 
is committed to continuing this migration of the Sons of Iraq 
into the jobs, either for the government or into the civilian 
sector. As you know, we were making progress and, at one point, 
we stopped that transition, because we needed the Sons of Iraq 
to help with the security for the elections. And certainly, as 
the new administration solidifies and comes on board, I have 
every reason to believe that they'll continue with the work 
that they've done up to this point.
    There are some good signs out there. The Sons of Iraq are 
getting paid routinely now, versus a year and a half ago; we 
really had to struggle to work to make sure that people were 
being paid. And, of course, as the economy begins to improve, 
there will be more opportunities to transfer from the Sons of 
Iraq into meaningful civilian employment. So, I think that that 
will be a great help, as well.
    The Chairman. Well, gentlemen--Senator Lugar, I don't know 
if you have additional questions.
    Senator Lugar. No, thank you.
    The Chairman. Want to thank you very, very much. We've 
covered a fair amount of territory. And I think you've been 
very helpful, with respect to the committee's concerns. There 
are obviously a lot of things that you'll be tracking, and so 
will we. And it's going to be a challenging year, with enormous 
consequences.
    So, we look forward to working with you, as we go forward. 
I'll look forward to getting out there, I hope fairly soon, to 
visit, get up to speed again on some of these issues.
    But, I want you to know that we're here, ready and willing 
to be helpful to try to break through any of these logjams and/
or to help think through some of these solutions.
    And again, on behalf of everybody here--I think you heard 
it from everybody, but let me just reiterate--we are enormously 
grateful for your personal service and for your efforts, here, 
which are of huge consequence to our country's national 
security interest.
    And, of course, we are, as I said in my opening comments, 
grateful, beyond words, to the sacrifices made by a lot of 
families, a lot of folks who are on third, fourth, even some 
fifth tours. It's a pretty incredible demand that's been made 
of our Armed Forces. And we're both grateful and proud.
    Thank you very, very much.
    We stand adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Responses of Ambassador James F. Jeffrey to Questions Submitted
                        by Senator John F. Kerry

    Question. Describe the primary mission and goals of each of the 
various 15 different embassy-managed sites planned for 2012 including 
the three different air hubs, three different police training centers, 
two consulates, two embassy branch offices, and five Office of Security 
Cooperation sites.

  <bullet> Why are all of these locations critical to achieving the 
        administration's goals in Iraq?

    Answer. USF-I is currently operating in all but one province in 
Iraq, conducting extensive training and equipping of Iraqi Armed Forces 
and police, and, along with 16 State-led PRTs, engaging with Iraqis on 
a multitude of governance, political, human rights, rule of law, 
economic, cultural, development, and media activities and assistance. 
In planning for continued engagement following the withdrawal of U.S. 
forces, the Department has worked hard to include only essential 
elements of this massive U.S. engagement which the U.S. Mission could 
be staffed and funded to carry out. There are currently 14 planned 
Chief of Mission sites: The Embassy, two consulates in Erbil and 
Basrah, Embassy Branch Offices (EBO) in Mosul and Kirkuk, air hubs at 
Baghdad Airport, Basrah and Erbil, police training centers at 
Contingency Operating Station (COS) Erbil and Joint Security Station 
(JSS) Shield (the third INL site is collocated with consulate Basrah) 
and four OSC-I sites at Forward Operating Base (FOB) Union III, 
Besmaya, Taji and Um Qasr (OSC-I also plans to collocate on several of 
the above consulates, EBOs, and hubs). We need secure, centrally placed 
locations to conduct the broad engagement required to achieve our 
policy goals.
    In Baghdad, JSS Shield will serve as the main hub for INL's Police 
Development Program (PDP). This site is located adjacent to the 
Ministry of Interior and Baghdad Police College, where the Bureau of 
International Narcotics and Law Enforcement (INL) will conduct 
substantial mentoring, training, and advising.
    Erbil will serve as a platform for U.S. economic programs in the 
Kurdistan region of Iraq. Erbil will also be our focal point for 
engagement with the Kurdistan Regional Government (KRG). KRG 
participation in the coalition government is critical to foster 
national unity, political reconciliation, and stability. Consulate 
Erbil will also provide a platform for engagement by USAID, the 
Department of Justice (DOJ), INL, and other government agencies and 
possibly the U.N.
    Not all personnel and operations can be housed at the existing 
consulate site in Erbil. Therefore INL's PDP hub in the north, a small 
number of DOJ personnel, all Embassy Air aviation personnel, and 
logistics and management personnel will be housed at COS Erbil.
    Development of Iraq's hydrocarbon industry is essential to 
providing revenues to improve basic services like power, water, 
security, and education. Our consulate in Basrah will continue to 
assist development efforts of reserves in southern Iraq. Consulate 
Basrah will also house State USAID, DOJ, INL (including the PDP), and 
DHS personnel.
    Unresolved Arab-Kurd disputes in northern Iraq have the potential 
to destabilize the country as a whole. EBOs in Mosul and Kirkuk will 
function as dual epicenters for mitigating Arab-Kurd tensions, in 
particular outreach to Arab, Turkmen, and minority populations in the 
disputed territories.
    EBO Mosul will provide a platform to promote reconciliation efforts 
among Arab, minority, and Kurdish populations in Ninewa province, home 
to Iraq's largest concentration of minorities. Mosul is also a center 
of Sunni political activism. Our counterterrorism cooperation with 
local military and law enforcement authorities will be important to 
mitigate the risk of a resurgent Al-Qaida in Iraq (AQI) or other 
extremist activity in the north. Finally, EBO Mosul will support INL, 
DOJ, the U.N., and other agencies.
    The status of Kirkuk remains one of the most volatile issues in 
Arab-Kurd relations. EBO Kirkuk, along with the U.N., will continue to 
address political, economic, and governance issues designed to support 
a political agreement on the status of Kirkuk. EBO Kirkuk will also 
provide a platform for engagement by INL, DOJ, and other agencies.
    The four OSC-I sites will provide engagement on critical security 
cooperation and security assistance programs at strategic centers where 
key FMS cases continue. The OSC-I headquarters is planned for FOB Union 
III across from the Embassy and close to the Ministry of Defense. It 
will manage security cooperation and assistance activities throughout 
Iraq. The Besmaya OSC-I site will be located within the Iraqi Army's 
Besmaya training complex--the primary center for Iraqi ground forces 
training and delivery location for several major FMS cases.
    The OSC-I Taji site is at the Iraqi Army's logistics center, and 
will facilitate the development of the ISF's logistical and sustainment 
capability and manage rotary-wing FMS cases. Finally, the OSC-I site at 
Umm Qasr is in Iraq's only naval base, which is critical to protecting 
Iraq's oil infrastructure. The site will support security cooperation 
activities with the Iraqi Navy as well as manage FMS naval cases.
    Three aviation hubs are being established, to provide 
transportation of personnel to and from the sites listed above and to 
other sites (including PDP visits). Air operations will also provide 
security for Chief of Mission personnel, quick reaction capabilities, 
and medical evacuation. The three sites (Baghdad, Erbil, and Basrah) 
are required to provide coverage based on locations supported and range 
of aircraft, using a hub and spoke concept that employs fixed- and 
rotary-wing aircraft for maximum efficiency.

    Question. What specific steps were taken to more readily facilitate 
the transfer of critical nonexcess equipment from DOD to the State 
Department in Iraq?

  <bullet> Are the authorities needed for such transfers now in place 
        and are they available to use in future similar military-to-
        civilian transitions such as Afghanistan?

    Answer. The Department of State (DOS) and the Department of Defense 
(DOD) have been working on the military-to-civilian transition for more 
than 2 years, both in Washington and in Iraq. Over the past year, DOS 
has submitted a number of written requests to DOD for equipment and 
support services. All these issues are being actively worked through 
the DOS-DOD Ad Hoc Senior Executive Steering Group, which coordinates 
all joint logistic issues associated with the transition.
    To date, DOD has transferred to DOS a large number of excess and 
expendable items in theater and is actively working on transferring 
selected nonexcess items on a reimbursable basis through sales from 
stock. In cases where sales from stock are not feasible, requests for 
items will be addressed on a case-by-case basis within existing 
authorities. For example, DOS has already taken possession of 171 sets 
of excess Night Vision Goggles; the Army is considering loaning State 
60 Caiman Plus MRAPs (mine-resistant, ambush-protected tactical 
vehicles) under the Economy Act (31 U.S.C. 1535), and three CT scanners 
(two are excess and one is to be purchased from stock ) are being 
processed to support DOS.
    U.S. Forces-Iraq has actively supported the transfer of ``T-
walls,'' water purification units, generators, existing hardened 
buildings, furniture and furnishings, fuel tanks, and containerized 
housing and office units (CHUs) to ensure that DOS's facilities are up 
and operational in a timely manner. The United States Embassy is 
completely satisfied with, and appreciative of, the generous support 
provided by DOD , and particulary CENTCOM and USFI.
    DOS and DOD have found that existing authorities are sufficient to 
effect the necessary equipment transfers or loans in Iraq. These same 
authorities can be used to undertake a similar effort in Afghanistan in 
the future.

    Question. What initiatives will the U.S. Embassy take to maintain 
peace along the disputed internal boundaries after the U.S. military 
withdrawal in 2012? What is the future of the combined security 
mechanisms beyond 2011? To what extent will the U.S. Embassy be 
involved in direct engagement with the Iraqi and Kurdish military in 
maintaining the combined security mechanisms?

    Answer. In January 2010, USF-I established the Combined Security 
Mechanisms (CSMs) in consultation with Iraqi and Kurdish security 
leaders, to promote integration and national reconciliation and to 
prevent violent extremists from exploiting the tensions between Iraqi 
Army and Peshmerga positions in Ninewa, Kirkuk, and Diyala provinces in 
the runup to the March parliamentary elections. The CSMs have largely 
succeeded in maintaining security along these disputed internal 
boundaries (DIBs) that run through these provinces and in improving 
coordination between Iraqi Army, Peshmerga, and Iraqi Police units. At 
the end of 2011, in accordance with the drawdown of troops outlined in 
the Security Agreement, U.S. Forces will cease to be a part of this 
mechanism.
    At that point, Embassy Baghdad and the Embassy's planned Office of 
Security Cooperation will continue our efforts to bolster cooperation 
between local security forces and integrate the Peshmerga Regional 
Guard Brigades more fully into the Iraqi Security Forces. Our efforts 
will build on progress achieved this summer when Prime Minister Maliki 
designated four Peshmerga Brigades as Regional Guard Brigades (RGBs) in 
order for them to transition more fully into the national Iraqi Armed 
Forces. This was an important first step toward the total integration 
of the two security forces. We are planning civilian-led programs with 
Iraqi partners to support the continued professionalization of all 
Iraqi forces which will also reduce tensions among the constituent 
elements of Iraq's emerging security architecture .
    Because an enduring resolution to the disputed boundaries will 
ultimately require a political solution, our current planning is 
significantly focused on transitioning our efforts in the DIBs to a 
civilian-led framework. From Embassy Baghdad and its planned consulate 
in Erbil and Embassy Branch Offices in Ninewa and Kirkuk, our civilian 
leadership will continue vigorous Arab-Kurd engagements with Iraqi 
civilian and military leaders across a spectrum of operations, 
including along the DIBs. Provincial leaders and influential Council of 
Representatives members will be critical to eventual political 
negotiations And Embassy Baghdad will include them in discussions on 
CSM transitions. We will also continue to support UNAMI's efforts to 
promote dialogue on the DIBs in accordance with relevant U.N. Security 
Council resolutions. We look forward to engaging in a variety of 
efforts to encourage further integration and cooperation along the 
DIBs, particularly as U.S. Forces complete their drawdown at the end of 
2011.

    Question. As State Department private security contractors (PSC) 
engage in functions previously conducted by DOD, how will decisions be 
made to return fire or engage in the event of hostile fire?

  <bullet> Have rules on the use of force been established and are they 
        part of the PSC contracts?

    Answer. Policies, procedures, and principles for the use of force 
have been established and are in place for all armed Department of 
State (DOS) personnel, including contractors. Policies and procedures 
for contractors are included as provisions of the DOS Worldwide 
Protective Services (WPS) contract, the U.S. Embassy Baghdad Mission 
Firearms Policy dated August 2010, and the Policy Directives for Armed 
Private Security Contractors in Iraq dated May 2008. These documents 
provide guidance and rules applicable to armed contract security 
personnel to enable them to make sound decisions concerning the use of 
both lethal and nonlethal force, including a series of steps of 
increased graduated force in response to threats contractors over the 
past several years, in thousands of tactical movements, adheared to 
these guidance and rules.
    WPS personnel also receive training on the use of force before they 
are deployed to Iraq and while in Iraq. By contractual terms, the 
contractor is required to maintain records of all training and 
qualifications of their personnel. These records are available to DOS.

    Question. According to SIGIR, more than $2.5 billion in INL-
implemented police assistance funds to Iraq may have been vulnerable to 
waste and fraud. What has INL done to address these concerns for 
currently existing police assistance contracts?

    Answer. The State Department's Bureau of International Narcotics 
and Law Enforcement Affairs (INL) seeks to meet high standards of 
contract management and oversight and to improve them through regular 
Bureau initiatives and in response to recommendations from the 
oversight community. INL has instituted a number of improvements such 
as: (1) establishing a comprehensive invoicing review process; (2) 
using the Quality Assurance Surveillance Plans (QASP) for contractor 
accountability; (3) increasing contract oversight personnel; and (4) 
drafting standard operating procedures for further specificity in 
oversight roles and responsibilities. We are pleased that SIGIR 
indicated there were no reports of significant fraud or waste, and 
SIGIR's recommendations will help strengthen oversight as we move 
forward.
    In October 2006, base CIVPOL contracts were modified to allow INL 
to demand repayment for any improper payments later identified in a 
detailed invoice review conducted in Washington, DC. INL currently 
makes only provisional payment after a detailed review of invoice 
documentation is conducted and the valid invoice is certified. This 
process includes rigorous controls over program execution and invoice 
payments. INL's tougher management controls have led to results such as 
the rejection of 23 percent of vendors' invoices with current reduced 
billings of $91 million and the recovery of more than $40 million in 
refunds for the period 2004 to the present.
    To minimize the U.S. Government's risk for fraud and mismanagement, 
INL instituted the use of Quality Assurance Surveillance Plans (QASP) 
to systematically ensure that the contractor is meeting performance-
based requirements. The plan details how and when the U.S. Government 
will survey, observe, test, sample, evaluate, and document the 
contractor's performance in accordance with the Statement of Work 
(SOW). By employing the QASP, INL and the contractor achieve an 
understanding of performance expectations and how performance will be 
measured against those expectations.
    INL has significantly increased contract oversight staff. 
Currently, we have nine In-country Contracting Officer's 
Representatives (ICORs) deployed in Iraq, and an additional ICOR is in 
training whose deployment is pending. INL anticipates increasing these 
staff to a total of 15 ICORs by July 2011. ICORs function as Government 
Technical Monitors and are responsible for carrying out quality 
assurance responsibilities as specified in the QASP. Also, INL is 
providing greater specificity in ICOR responsibilities as delineated in 
the ICOR delegation letters and 14 FAH-2 H-100, the COR Handbook. INL 
drafted standard operating procedures for ICORs. We are in the process 
of drawing conclusions resulting from our recent field testing of the 
draft guidance which covers: Invoice Validation; Receiving and 
Inspection; and COR File Maintenance. INL will continue to refine and 
update this guidance based on the field test results.
                                 ______
                                 

    Responses of Ambassador James F. Jeffrey to Questions Submitted
                      by Senator Richard G. Lugar

    Question. Back in November, I sent Secretary Gates a letter asking 
how the Department of Defense had responded to several letters of 
request from the Department of State for material assistance. A draft 
response sent to my staff shows most of those issues have been worked 
out, but the process seems laborious. Do you have to become involved in 
these matters, or would you benefit from having a senior unified 
coordinator to resolve these transition issues? Has the Department 
considered naming a senior coordinator to help manage the transition 
issues back here in Washington?

    Answer. The Secretary of State has appointed Ambassador Patricia M. 
Haslach as Iraq Transition Coordinator. Ambassador Haslach will be 
responsible for coordinating State Department aspects of the U.S. 
transition from military to civilian operations in Iraq. As we move 
forward under Ambassador Haslach's leadership, we will remain focused 
on building on the excellent working relations between General Austin 
and Ambassador Jeffrey.
    Embassy leadership and multiple Bureaus of the Department of State 
are in constant contact with the Department of Defense on transition 
issues, including material transfers. Senior leadership at the 
Department of State, including Deputy Secretary Nides, is also heavily 
engaged. This close collaboration has paved the way for the successful 
transfer of military excess materials, and some nonexcess materials 
deemed critical to continuing Department of State operations following 
the military withdrawal.
    Collaboration between the Department of State and the Department of 
Defense has produced several important milestones, including State's 
use of Defense's logistics contracting mechanism, the pending transfer 
of 60 mine resistant ambush protective vehicles, and plans for 
engagement on medical services and equipment and security systems.

    Question. With most diplomatic personnel at the U.S. Embassy in 
Baghdad serving only 1 year and rotating out every summer, how will the 
Embassy ensure that institutional memory regarding contextual 
information, contacts, etc., is not lost? How large is the current 
cadre of Foreign Service nationals? How many 3161-type employees are 
employed in Iraq, and what is the average length of their experience in 
Iraq?

    Answer. Embassy Baghdad, supported by NEA/I, the Iraq office in the 
State Department, is committed to the continuity of information and 
operations. For many years, the Embassy has ensured that there is 
overlap between transitioning employees and has insisted that employees 
do not all depart at the same time.
    The Embassy uses a variety of technologies to support smooth 
transitions as well. It is currently deploying eContacts, a web-based 
application used at embassies around the world. This system is being 
implemented embassywide in order to capture commonly used and useful 
information about Iraqi contacts in one location. Each Embassy section 
will designate a Contact Management Representative responsible for 
maintaining information about the contacts of that section. The Embassy 
has paid close attention to the Provincial Reconstruction Teams (PRTs) 
to ensure that the most important contacts are maintained by the 
Embassy after they close, and included in the eContacts system.
    Embassy Baghdad has gone to great lengths to fully implement the 
Department of State's new State Messaging and Archive Retrieval Toolset 
(SMART) system as well. This system allows for the archiving of e-mails 
and other electronic documents. All State personnel, including contract 
staff members, in Iraq currently have the ability to archive their 
records and information via SMART. SMART has been made available to all 
other agency personnel throughout the mission as well.
    As the committee knows, we are currently undergoing a transition 
from a military to a civilian-led mission. In the process, our PRTs 
will close, several of our reconstruction programs will end, and our 
military colleagues will drawdown. Because we take the continuity and 
preservation of critical information so seriously, we have set up an 
interagency Knowledge Management Transition Steering Committee (KMTSC), 
with a full-time Knowledge Management Coordinator. The KMTSC is charged 
with ensuring that essential information from USF-I, PRTs and other 
agencies and departments remains available. In the most recent phase of 
this effort, on February 23, the Embassy hosted a very successful 
interagency Knowledge Management Transition Conference with over 100 
registered participants from around Iraq.
    At present, there are approximately 180 Locally Engaged Staff (LES) 
positions in Iraq, approximately 160 are filled by a mix of Iraqi 
Locally Engaged Staff and by volunteer TDY LES from other U.S. 
embassies around the world. This staffing scheme provides vetted 
personnel with language skills and experienced volunteer FSNs who 
provide subject matter expertise and serve as mentors/trainers for 
newly hired Iraqi staff during the military to civilian transition.
    There are currently 126 personnel in Iraq hired under the 
3161employment mechanism throughout the mission providing continuity 
for important programs. The average length of service of individuals 
hired under the 3161 employment mechanism is between 18 and 24 months.

    Question. Tell us how you will train the civilian contractors who 
will join the Iraq mission. What program do you put them through?

    Answer. We are planning to have three primary categories of 
contract personnel who will be engaged under chief of mission 
authorities in Iraq after December 31, 2011. (1) One category will 
cover facilities and personnel protection for our diplomatic 
facilities; (2) a second category will handle logistical support for 
diplomatic missions; (3) the third category is comprised of subject 
matter experts for our police training programs. Additionally, there 
will be a number of contractors covering facilities and personnel 
protection for our Office of Security Cooperation (OSC) stand-alone 
sites which will be under CENTCOM security standards.
    Private security contractors working under the State Department's 
new Worldwide Protective Services (WPS) contract will provide both 
static guard and personal protective security, to U.S. diplomatic 
missions in Iraq. The WPS contract requires 315 hours of training for 
contractor personnel who provide protective security. Static guards 
receive 120 hours of training, 80 hours of general training plus 40 
hours of specialized firearms training. Training for all personnel 
covers roles and responsibilities under host government law, laws and 
regulations on the use of force, instructions on dealing with the 
public, and operational responsibilities. All WPS contractors are also 
required to attend country-specific cultural awareness training prior 
to deployment. All instruction is from Department-provided or 
Department-approved lesson plans. Program office representatives vet 
each training site, and they review and approve each instructor. 
Frequent onsite oversight visits are made to training venues to ensure 
compliance with contract responsibilities. Training records are 
maintained for all contract personnel, and no personnel are permitted 
to deploy until all training requirements have been met.
    Pursuant to the contractual language, life-support contractors, 
contracted under the U.S. Army's Logistics Civil Augmentation Program, 
are responsible for ensuring that personnel hired to perform the 
requirements identified in the contract documents have all training, 
degrees, or certifications necessary to perform the work assigned to 
them. This requirement applies whether the prime or subcontract 
employees perform the work. The contracting officer must approve any 
exceptions.
    INL's Police Development Program will employ some contracted 
experts and plans for these advisers to participate in the same 
predeployment courses at the National Foreign Affairs Training Center 
that are required for all direct-hire USG employees deploying to Iraq. 
The courses include country-specific cultural awareness training and 
Iraq familiarization, along with some functional area instruction.
    The January decision by the Secretary of Defense to accept the 
delegation of Security responsibility for the OSC-I field sites also 
means that CENTCOM will rely on Private Security Contractors for both 
static and movement security of OSC-I personnel. We are now working 
with DOD to identify functional and country-specific cultural training 
requirements for those contractors.

    Question. What new mechanisms will the State Department employ to 
ensure that the large contracts are managed in a way to minimize waste, 
fraud, or abuse? Will State's OIG have permanent presence? Should they?

    Answer. The State Department will have several types of large 
contracts in Iraq: providing life support, medical services, security 
and construction.
    For life support, State Department will utilize the Army LOGCAP 
contract with a Task Order specifically designed to support the U.S. 
Embassy footprint throughout Iraq. Also, State Department will use an 
Army contract for the maintenance of tactical vehicles and security 
equipment. Contract administration will include the following: State 
Department will assign Contracting Officers' Representatives at the 
Embassy and Assistant CORs at each location. Army Sustainment Command 
presence in Iraq to administer the contract may include Program 
Director, Contracting Officer(s), Program Manager(s) and Administrative 
Contracting Officers. Additionally, the Defense Contract Management 
Agency (DCMA) will oversee the LOGCAP and other contracts. The presence 
will include DCMA officers, quality assurance representatives and other 
personnel. The Defense Contract Audit Agency will also providing 
auditing for the LOGCAP and other DOD contracts as required.
    For the medical services contracts in Iraq, AQM has a contracting 
team with three acquisition personnel to work the Iraq projects. The 
team consists of one contracting officer with an unlimited warrant and 
two contract specialists. Furthermore, the members of the acquisition 
team are available for travel to Iraq to monitor contractor 
performance. After the contract is awarded, the Office of Medical 
Services will identify a qualified individual who will serve as the 
Contracting Officer's Representative and his/her staff will assist in 
overseeing the medical services contracts in Iraq.
    For security contracts, a direct hire DS employee is present in 
every motorcade to provide operational oversight for each movement. 
Additionally, DS has implemented several technical measures to monitor 
protective details, including the use of tracking devices in each 
protective movement, allowing the Tactical Operations Center to monitor 
the location of each motorcade, the installation of recording equipment 
to archive radio communications, and the installation of video cameras 
in protective vehicles.
    In order to augment the contract oversight provided by RSOs 
designated as Contracting Officer's Representatives (CORs), DS is 
establishing new positions in the Embassy, Consulates and Embassy 
Branch Offices to be designated as Government Technical Monitors (GTM). 
These personnel will assist the RSO CORs to ensure full compliance with 
all contract requirements. In many cases, the GTM will live in the same 
facility as the contract employees, assist with the verification of 
personnel rosters used by the contractor to create its labor invoice, 
confirm qualifications of personnel, hours worked, adherence to 
Standards of Conduct, inventory control verifications and other 
contract oversight needs as directed by DS and the RSO COR.
    Additionally, the DS program office has hired personnel in 
Washington to assist in reviewing invoices and maintaining day-to-day 
communications with the COR/GTMs at each task order location. Moreover, 
a number of ``lessons learned'' from the current Worldwide Personal 
Protective Services II (WPPS II) contract were incorporated into the 
new Worldwide Protective Services (WPS) contract. This includes 
additional training for all personnel, the use of DOD's Synchronized 
Pre-Deployment and Operational Tracker (SPOT) and Joint Asset Movement 
Management System (JAMMS) databases to track personnel in country, and 
limits on the number of consecutive hours/days that any individual may 
work.
    For construction contracts in Iraq, AQM has a dedicated, full-time 
contracting team with five acquisition personnel that work the Iraq 
projects. The team consists of one contracting officer with an 
unlimited warrant and four contract specialists. Additionally, the 
members of the acquisition team are available for travel to Iraq to 
monitor contractor performance. After the contracts are awarded, OBO 
intends to staff personnel in Baghdad to provide project director 
oversight to the pending contract awards.
    OIG has realized significant oversight results relating directly to 
the establishment of an OIG presence in Baghdad, Iraq. Posting OIG 
employees in Baghdad enabled an immediate response to issues 
originating in Iraq requiring audit, investigation or other oversight 
reviews.
    OIG made a determination it would operate pursuant to a 5-year 
presence at Embassy Baghdad to oversee what was determined to be the 
most critical events at that time. The current 5-year period will 
expire in December 2013. OIG will reassess its need to maintain a 
presence in Baghdad based on the situation at that time. OIG is 
establishing a long-term presence within the region with offices in 
Cairo, Egypt, and Amman, Jordan, which can also assist in conducting 
future oversight of Department of State activities in Iraq and other 
surrounding countries.
                         inl contract oversight
    In order to support operations from its three hub locations in 
Erbil, Baghdad, and Basrah, INL will pay for services under the same 
contracts that the Embassy is planning to use--primarily LOGCAP, OBO 
IDIQ Construction contracts and WPS. The cost of contract oversight 
provided by M, OBO and DS in support of the Police Development Program 
will therefore be paid by INL as part of INL's related funding 
requirement for obtaining these contracted services. The mechanisms 
employed to manage contracted services in support of INL, and to 
minimize waste, fraud, or abuse, will be identical to those described 
above for the State Department at large.
    INL is currently awaiting the award of the Criminal Justice Program 
Support (CJPS) contract. The CJPS contract may be used to obtain 
services for other aspects of Iraq Police Development Program 
operations except Construction, Security and IT/Communications 
infrastructure. CJPS contracted services could therefore include gap 
coverage for Life and Mission Support not provided under Embassy 
contract, or it could include Civilian Police Advisers. INL has an 
existing cadre of In-country Contracting Officer's Representatives 
(ICORs) to manage contracted services and to minimize waste, fraud, or 
abuse. INL ICORs have been deployed to Iraq since 2007 to perform 
contract oversight for INL's in-country operations. INL will continue 
to utilize its ICOR cadre in Iraq for direct contract oversight of 
stand-alone INL contracts and will assign ICORs at our hubs to assist 
with oversight of the Embassy's contracts.

    Question. Why not put all that funding into FMF? What levels of 
FMF, and IMET assistance do you anticipate will be needed beyond FY 
2011? For what specific purposes and for how long?

    Answer. To achieve President Obama's strategic objective of a 
sovereign, stable, and self-reliant Iraq that contributes to peace and 
stability in the region, we must continue to support Iraq's efforts to 
develop capable Iraqi Security Forces that provide for Iraq's own 
internal security and can defend against external threats. FMF and IMET 
are two of our key policy tools to help shape the Iraqi military forces 
to meet these security needs and play a positive role in the region.
    Consistent with the drawdown of U.S. forces and the stand up of the 
Office of Security Cooperation, FY 2012 will represent the first year 
of a normalized security assistance relationship with Iraq, namely 
through the inaugural use of State's FMF programming. Our use of FMF 
follows on the final year of DOD's Iraq Security Forces Funding in FY 
2011. This funding will provide an important vehicle for helping the 
Iraqi Security Forces achieve minimum essential capabilities (MEC) and 
for cementing our enduring partnership with Iraq during an important 
period of transition.
    Funding for FY 2012 broadly focuses on helping the Iraqis increase 
capacity and professionalism of Iraqi security forces and complements 
the efforts made through U.S., coalition, and Iraqi military operations 
and initiatives since 2003. The FMF program will help ensure that a 
strong bilateral relationship is in place by the time Iraq is able to 
fully utilize its own fiscal resources to contribute to peace and 
security in the region. Core objectives for the proposed programming 
include: achieving minimum essential capabilities; building enduring 
sustainment capabilities; enabling strategic transitions and creating 
enduring partnerships; and, developing a quick response capability. 
This funding will assist with the fielding of critical equipment such 
as vehicles; Intelligence, Surveillance, and Reconnaissance platforms; 
and weapons systems; and the development of organic Iraq logistics and 
maintenance structures; as well as support sustainment and training 
that will ensure a modernized, professional, and interoperable Iraqi 
military.
    In FY 2012, IMET will fund professional development courses that 
will continue to further the goal of regional stability by fostering 
effective, mutually beneficial military-to-military relations. These 
courses will increase the institutional capacity within the GOI, 
strengthen the leadership ability of key civilian and military 
personnel, and enhance exposure to the necessity for basic democratic 
values and protection of internationally recognized human rights.

    Question. Ambassador, what frequency of in-person interaction are 
you planning for the large police training mission you described?

    Answer. Intensive in-person advising and mentoring between our 
trainers and senior-level Iraqi police officials is one of the 
distinguishing features of our planned Police Development Program 
(PDP). The planned frequency of our advising and mentoring will vary by 
site, but multiperson teams will visit approximately one to two times 
per week at sites accessible by air and three to five times per week at 
sites reachable by ground.
    The State Department-led PDP will build upon the successes of the 
DOD training effort. It will consist of approximately 190 subject 
matter advisers who will be based out of three geographic hubs: 
Baghdad, Basrah, and Erbil. These advisers will conduct outreach to an 
estimated 28 advisory sites in 10 of Iraq's 18 provinces. In the eight 
provinces not directly engaged by the PDP, Government of Iraq police 
personnel can travel and receive training in any one of the 10 
provinces covered by our program. The targeted provincial police 
headquarters encompass and manage approximately 55 percent of the 
nearly 300, 000 police assigned to the Iraqi Police service (IPS), 
which protect approximately 65 percent of the Iraqi population.

    Question. What are the desired outcomes in the police program? What 
is your baseline in those areas? What impact to the desired outcomes 
will result from reducing the number of INL-funded police advisers from 
the originally requested 350 advisers to 190?

    Answer. The desired outcomes of the Iraq Police Development Program 
(PDP) are to assist the Government of Iraq (GOI) in developing a 
professional, competent, and effective Ministry of Interior (MOI) fully 
capable of providing internal security and supporting the rule of law; 
maintaining a capable police force through continued training, 
education, professional development, and recruitment; and adhering to 
civilian police practices ensuring human rights for its citizens.
    In addition to the planning efforts with MOI officials to design 
this program to meet Iraqi needs, we are performing an assessment of 
the current state of the criminal justice sector in Iraq in order to 
establish a baseline for measuring the success of our training 
programs,. The assessment will help us pinpoint issues of concern and 
direct resources to those areas that need the most improvement and are 
most ripe for professional international police assistance.
    The assessment will involve extensive consultations with GOI and 
U.S. Government officials, other donor nations, international 
organizations, program implementers, and nongovernmental organizations 
both in the United States and in Iraq. Consultations will occur on the 
ministerial, regional, and provincial levels.
    We are also working with a consulting firm with expertise in 
performance monitoring and evaluation to develop a results framework, 
indicators, and metrics that will monitor the success of the PDP by 
measuring the quantifiable product of outputs and the degree of change 
brought about by the outcomes. Though the specific outputs will be 
refined over time in conjunction with the GOI, examples of potential 
outputs include: (1) A well-developed train-the-trainer program; (2) 
improved processes for developing strategic plans, policies, 
procedures, and supporting legislation and regulations; (3) operational 
forensics labs established and used by the Iraqi police; and (4) 
functional IT systems developed and maintained by the Iraqi police. 
Outcomes include: (1) Improved effectiveness of the Iraq Police at 
national and provincial levels; (2) increased capabilities of Special 
Operations Units, the Intelligence Division, and canine units; and (3) 
strengthened training academies to serve all levels of police personnel 
and their ongoing professional development.
    The decision to reduce the PDP from its original size of 350 
advisers to 190 advisers will not adversely impact our desired results 
for the Iraqi police, but will limit INL's reach throughout Iraq. Under 
the 350 model, our plans were to conduct training and mentoring at over 
50 GOI sites in all 18 Iraqi provinces. In the current 190 adviser 
model, our outreach will occur in 10 provinces, and the number of GOI 
advisery sites has correspondingly been reduced to an estimated 28. To 
maximize its effectiveness, the PDP will focus in the most populated 
cities in Iraq, plus a number of other locations chosen for 
programmatic and strategic importance. However, we are also developing 
plans to ensure that key Iraqi police personnel based in the eight 
other provinces will also have the opportunity to receive advanced 
training at one of the other 28 GOI advisory sites by travelling to a 
site closest to them or by participating in training at the main police 
colleges.
    Using this approach, we will focus the resources of the PDP on GOI 
sites which account for and manage approximately 55 percent of the 
nearly 300,000 personnel assigned to the Iraq police, who protect about 
65 percent of the total Iraqi population.

    Question. Both State and DOD have been delinquent in providing 
congressionally mandated quarterly reports on Iraq Stability and 
Security (9204 report, 1227 report). The last we received were in the 
summer of 2010. These reports are essential to our oversight 
obligations. What is the cause for this delay and what will you do to 
improve this record?

    Answer. The 1227 report is in clearance, and we expect to submit it 
within the next several days.

    Question. Mr. Ambassador, do you raise the issue of refugees and 
internally displaced persons (IDPs) with Prime Minister Maliki? In the 
past, even meeting with members of this committee, he has been 
dismissive of the issue. Has he shown any commitment? Is there a long-
term comprehensive strategy on the part of his government, and regional 
governments to bring this file to a close? How much help are we 
appealing for/getting from European states?

    Answer. We regularly engage with the Iraqi Government on refugee 
and IDP issues, and I have personally committed to elevating awareness 
by visiting a squatter settlement and discussing displacement with 
Prime Minister Maliki at the earliest opportunity. Senior Embassy 
officials have recently met with the newly appointed Minister of 
Displacement and Migration (MoDM) Dindar Najman, as well as senior 
officials in the Prime Minister's office and the Council of 
Representatives. We are cautiously optimistic that the new Iraqi 
Government will be more engaged in identifying durable solutions for 
its displaced citizens, including developing a comprehensive strategy 
to address displacement. MoDM Minister Najman has publicly announced 
that he will work to improve the lives of IDPs and coordinate with his 
regional partners to continue to support Iraqi refugees.
    The Iraqi Government has undertaken a number of initiatives to 
assist displaced Iraqis and encourage voluntary returns. For example, 
the Iraqi Government increased the budget for the MoDM by 250 percent 
in 2010, which has permitted an increase in the grants offered to 
returning refugees and displaced persons from 1 million dinars ($800) 
to 1.5 million dinars ($1,200). In addition, the GOI has assisted 2,200 
Iraqis in Egypt to return over the past month, providing free flights 
and reintegration assistance upon their return. The Iraqi Government 
has begun to disperse the $32 million it pledged for compensation to 
displaced persons in Diyala province. This is a positive signal of 
Iraqi Government support for returning refugees and IDPs since Diyala 
had experienced significant displacement. Through the initiative, the 
Iraqi Government is investing in agricultural and other infrastructure 
programs and basic services in areas with large numbers of returnees. 
While the international community is partnering with the Iraqi 
Government to provide targeted assistance for returnees in this 
province, we continue to press for greater contributions by the 
international community to sustain humanitarian and development 
assistance in all areas of displacement.
    Although Iraq has made progress on assisting displaced Iraqis, we 
continue to urge them to do much more, including providing land grants 
to the most vulnerable IDP squatters, providing a local integration 
stipend to IDPs who choose not to return home, and providing greater 
assistance to its citizens who are displaced in neighboring countries.
                                 ______
                                 

    Responses of Ambassador James F. Jeffrey to Questions Submitted
                    by Senator Robert P. Casey, Jr.

    Question. On January 2, 2008, Staff Sergeant Ryan Maseth, of 
Shaler, PA, and on September 1, 2009, Adam Hermanson, a Defense 
contractor, whose wife is a resident of Muncy, PA, were both 
electrocuted while showering in Iraq. These are 2 of the 19 
servicemembers or defense contractors who have been killed, not by al-
Qaeda or an insurgent group, but by deficient electrical work performed 
by contractors. While I applaud the efforts of U.S. Forces-Iraq's 
standards and inspection team, named Task Force Safe, for their 
diligence in inspecting electrical work throughout Iraq, I continue to 
have grave concerns over the safety of our military and State 
Department personnel. How are we ensuring that contractors, 
specifically those installing or uninstalling electrical equipment, 
follow the proper electrical standards?

    Answer. In 2008, Embassy Baghdad completed its transition from the 
Republican Palace, realizing full occupancy of the 27 buildings at the 
New Embassy Compound (NEC), including the Chancery, Annexes 1 and 2, 
staff apartments, Marine Security Guard Quarters, and Chief of Mission 
and Deputy Chief of Mission residences. In addition, two complexes were 
subsequently added at the NEC site to house and provide food service to 
local guards and maintenance personnel. The entire NEC provides safe, 
secure, and functional working and living space for U.S. Government 
personnel serving in Iraq.
    The construction and installation of electrical service for the 
Department of State's (the Department) buildings in Iraq has not 
resulted in any fatalities or injuries.
    Additional facilities are planned for the Baghdad NEC, as well as 
two consulates general and two embassy branch offices in Iraq, as the 
mission increases in size as the result of the military drawdown and 
civilian uplift. All of these facilities will be constructed in 
accordance with U.S. electrical standards and with appropriate contract 
oversight, as described below.
    The effectiveness of the Department's safety program is borne out 
by the record: As in Iraq, electrical installation and service for our 
buildings has not resulted in fatalities/injuries at any of the more 
than 288 capital and major renovation works completed by the 
Department's Bureau of Overseas Buildings Operations (OBO) since 2001. 
These projects represent contracts worth well over $1 billion annually, 
for NECs and structures that include both office buildings and 
residential complexes, whether temporary or permanent in nature.
    To ensure that electrical work meets standards for work performed 
under contract for the Department, the contract specifications required 
by the Department adhere to U.S. electrical codes, specifically the 
National Electrical Code. As part of these requirements, OBO's 
construction emphasizes proper grounding and includes the installation 
of Ground Fault Circuit Interrupters (GFCIs) in bathrooms, kitchens, 
and outdoors. Furthermore, work is done by contractors familiar with 
U.S. standards, and all contracts include a requirement for quality 
control. Contractor designs are reviewed in Washington, DC, by the 
Department's electrical engineers for code compliance. During 
construction, each contract has onsite supervision by the Department's 
Construction Managers, who have electrical engineers among their onsite 
staff. These personnel oversee the quality assurance program and the 
commissioning and testing of all electrical work. Work that is underway 
in Iraq adheres to this process, as will any future work.

    Question. The provided joint testimony noted that: ``If the 
Department of State is to effectively take the lead from our military 
colleagues, we need the support and resources to finish the job.'' 
General Austin, during your testimony you said that we must ``fully 
resource Embassy Baghdad.'' Why is it important to have a fully 
resourced Embassy, and what does it mean in terms of personnel and 
funding?

    Answer. We face numerous challenges in Iraq. It is vital that our 
staff is able to move securely and live in safe and functional 
facilities as they seek to identify, advance, and defend U.S. 
interests. A fully resourced mission is the only way we can do this 
effectively.
    Our presence at U.S. Embassy Baghdad has undergone a long right-
sizing process and is continuously reviewed. The manpower, equipment, 
and capabilities allow for what is absolutely necessary for Embassy 
Baghdad to safely continue diplomatic engagement with Iraqi political, 
religious and civil society leaders within Iraq's challenging security 
environment. A key part of the USG strategy in Iraq includes the 
establishment of two consulates (Basrah and Erbil) and two Embassy 
Branch Offices (Kirkuk and Mosul) in addition to the Embassy. These 
offices positioned along key faultlines of potential Arab-Kurd or 
Sunni-Shia crises, can balance foreign interference, and promote 
opportunities for investment, stimulating economic opportunity for 
Iraq's growing population. The security environment and ethnic and 
sectarian dynamics of Iraq dictate vigorous local engagement in these 
areas.
    The mission will employ approximately 16,500 direct hire and 
contractor personnel to support post-transition diplomatic operations. 
We have requested $4.8 billion in FY 2012 for setup and operating costs 
for facilities throughout Iraq.

    Question. Your testimony predicts that ``Shia extremists will 
continue to be funded, trained, and equipped by Iran. Violence will be 
masked by criminality, illicit smuggling, and extortion--a blend of 
extremism and crime.'' What measures can Embassy Baghdad take to 
counter Iranian influence in Iraq's political and security affairs?

    Answer. Although Iraq desires mutually beneficial relations with 
Iran, polls show that Iraqis are deeply opposed to overweening Iranian 
influence in Iraq. The previous government, also led by Prime Minister 
Maliki, confronted Iranian-backed Shia militant groups in the March 
2008 Charge of the Knights campaign, and the Iraqi Government signed 
the Security Agreement and the Strategic Framework Agreement with the 
United States despite intense opposition from Tehran.
    In our view, the best way to counter the negative exercise of 
Iranian or any other outside influence is by supporting a self-reliant, 
democratic, and stable Iraq that pursues its own national interest and 
develops its oil resources. This includes supporting Iraq's security 
forces, expanding the country's governmental capacity, strengthening 
its democratic institutions and promoting its economic development. The 
transition from a military to civilian led operation is crucial to this 
effort. The Department of State and Embassy Baghdad will assume 
responsibility for police training and mentoring programs previously 
managed by the Department of Defense and the U.S. military. Similarly, 
the Office of Security Cooperation-Iraq (OSC-I) , responsible for 
security assistance and security cooperation with Iraq, will facilitate 
of Foreign Military Sales cases designed to strengthen the Iraqi 
military. Through efforts such as the State Department-led Police 
Development Program, OSC-I, and continued assistance to promote the 
rule of law, governance, and other important initiatives, we will be 
able to help Iraq strengthen its institutions, improve the lives of its 
citizens, and preserve its independence from Iran and other negative 
regional influences.

    Question. Will the 190 State Department INL advisers to the Iraqi 
police forces be made up solely of full-time Department of State 
employees, and will the 28 advisory locations be permanent DOS-
controlled facilities used solely for training the Iraqi police?

    Answer. The Department's police development program is a police 
professionalization program that builds on the current work being done 
by the U.S. military's police training program in Iraq. It will provide 
senior level ministerial advisers in key organizational areas, such as 
human resource management and strategic planning, senior level police 
mentors to provincial chiefs of police, and subject matter experts 
(e.g., forensics, crime scene management, EOD, community policing, 
etc.) to Iraqi trainers, We are seeking to hire as many U.S. Government 
personnel pursuant to employment authorities under 5 U.S.C. Sec. 3161 
as possible to serve as INL police advisers. In addition, direct hire 
personnel from state and local police departments and other Federal 
agencies such as the Department of Homeland Security will be detailed 
to INL to serve as police advisers. We may also use contracted subject 
matter experts, depending upon our specific requirements for expertise, 
to serve as advisers.
    All of the 28 advisory sites at which INL police advisers will be 
mentoring and training Iraq police are Government of Iraq facilities, 
and are not DOS-controlled sites. These include the Ministry of 
Interior, provincial police headquarters, and police colleges and 
training academies.

    Question. The Special Inspector General of Iraq's latest quarterly 
and semiannual report notes that the Government of Iraq promised to 
hire over 95,000 SOI members, but has only offered positions to nearly 
40,000. Why is this the case? What will Embassy Baghdad do to ensure 
these instrumental allies are able to continue contributing to the 
stability of Iraq?

    Answer. We agree that the transition of Sons of Iraq (SOI) to long-
term employment remains vital to maintaining security gains in Iraq. A 
history of pay problems and slow transition to other employment, though 
coincidental, contribute to perceptions among the SOI that Sunnis are 
being discriminated against. Embassy Baghdad and U.S. Forces-Iraq 
continue to work with the Government of Iraq (GOI) to meet its 
commitments to pay SOI on time and transition the SOI into the Iraqi 
security forces and civilian ministries.
    Prior to the March 2010 parliamentary elections, the GOI had 
transitioned 43 percent of the approximately 95,000 SOI into the Iraqi 
security forces or various civil ministries. During the elections, the 
GOI put the transition of SOI into civilian and Iraqi security forces 
jobs on hold to afford extra security during and after the elections. 
Security needs during government formation extended this pause in SOI 
transition. Planning continues for transitioning the remaining SOI.
    Despite these delays, the GOI continues to support the Sons of 
Iraq. Since May 2009, the GOI has been responsible for paying all SOI 
salaries, and timeliness continues to improve. In 2 of the last 4 
months (September and December), SOI were paid early, with only minor 
delays in four provinces in October and November. Further, the GOI's 
draft 2011 budget includes $195 million for salaries and other payments 
for the SOI.
    Embassy Baghdad and USF-I remain engaged on the issue of 
transition, and continue to partner with GOI officials, provincial 
leaders, and Sunni tribes on SOI issues. This persistent effort is 
succeeding. A new SOI Joint Coordination Center (JCC) has recently been 
formed within the Ministry of Defense, which aims to enhance 
interagency cooperation and increase responsiveness to SOI concerns. 
The JCC will facilitate the GOI's renewed focus on SOI pay issues and 
transitions.

                                  <all>

</pre></body></html>
